<html>
<title> - BUILDING THE COAST GUARD AMERICA NEEDS: ACHIEVING DIVERSITY, EQUITY, AND ACCOUNTABILITY WITHIN THE SERVICE</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                     BUILDING THE COAST GUARD AMERICA NEEDS: 
                   ACHIEVING DIVERSITY, EQUITY, AND ACCOUNT-
                       ABILITY WITHIN THE SERVICE

=======================================================================


                                HEARING

                               BEFORE THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 23, 2021

                               __________

                           Serial No. 117-20

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                                    

        Available via the World Wide Web: http://www.govinfo.gov        
        
                                __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
45-466 PDF                 WASHINGTON : 2021                     
          
-----------------------------------------------------------------------------------  
                             

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            John Katko, New York
James R. Langevin, Rhode Island      Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     Clay Higgins, Louisiana
J. Luis Correa, California           Michael Guest, Mississippi
Elissa Slotkin, Michigan             Dan Bishop, North Carolina
Emanuel Cleaver, Missouri            Jefferson Van Drew, New Jersey
Al Green, Texas                      Ralph Norman, South Carolina
Yvette D. Clarke, New York           Mariannette Miller-Meeks, Iowa
Eric Swalwell, California            Diana Harshbarger, Tennessee
Dina Titus, Nevada                   Andrew S. Clyde, Georgia
Bonnie Watson Coleman, New Jersey    Carlos A. Gimenez, Florida
Kathleen M. Rice, New York           Jake LaTurner, Kansas
Val Butler Demings, Florida          Peter Meijer, Michigan
Nanette Diaz Barragan, California    Kat Cammack, Florida
Josh Gottheimer, New Jersey          August Pfluger, Texas
Elaine G. Luria, Virginia            Andrew R. Garbarino, New York
Tom Malinowski, New Jersey
Ritchie Torres, New York
                       Hope Goins, Staff Director
                 Daniel Kroese, Minority Staff Director
                          Natalie Nixon, Clerk
                           
                           
                              C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     9
The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Ranking Member, Committee on Homeland 
  Security:
  Oral Statement.................................................    10
  Prepared Statement.............................................    12
The Honorable Carolyn B. Maloney, a Representative in Congress 
  From the State of New York, and Chairwoman, Committee on 
  Oversight and Government Reform:
  Oral Statement.................................................    12
  Prepared Statement.............................................    13

                                Witness

Admiral Karl L. Schultz, Commandant, United States Coast Guard:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16

                             For the Record

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Statement of Commander (Select) Kimberly C. Young-McLear, Ph.D.     4
  Letter From the American Federation of Government Employees, 
    AFL-CIO (AFGE)...............................................     7
  Letter From the New London NAACP...............................     8
The Honorable John Katko, a Representative in Congress From the 
  State of New York:
  Chart..........................................................    21
The Honorable Clay Higgins, a Representative in Congress From the 
  State of Louisiana:
  Letter.........................................................    26

                               Appendix I

Questions From Chairman Bennie G. Thompson for Admiral Karl L. 
  Schultz........................................................    59
Questions From Hon. Bonnie Watson Coleman for Admiral Karl L. 
  Schultz........................................................    61
Questions From Hon. Dan Bishop for Admiral Karl L. Schultz.......    61
Question From Hon. Clay Higgins for Admiral Karl L. Schultz......    61

                              Appendix II

Letter From K. Denise Rucker Krepp to Chairman Bennie G. Thompson    63

 
 BUILDING THE COAST GUARD AMERICA NEEDS: ACHIEVING DIVERSITY, EQUITY, 
                 AND ACCOUNTABILITY WITHIN THE SERVICE

                              ----------                              


                        Wednesday, June 23, 2021

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:32 a.m., via 
Webex, Hon. Bennie G. Thompson (Chairman of the committee) 
presiding.
    Present: Representatives Thompson, Jackson Lee, Payne, 
Correa, Slotkin, Cleaver, Green, Clarke, Swalwell, Watson 
Coleman, Demings, Barragan, Gottheimer, Katko, Higgins, Guest, 
Bishop, Van Drew, Norman, Miller-Meeks, Clyde, Gimenez, Meijer, 
Cammack, and Pfluger.
    Also present: Representative Carolyn B. Maloney.
    Chairman Thompson. The Committee on Homeland Security will 
come to order.
    The committee is meeting today to receive testimony from 
Admiral Karl L. Schultz, the Commandant of the Coast Guard, on 
``Building the Coast Guard America Needs: Achieving Diversity, 
Equity, and Accountability Within the Service.''
    Without objection, the Chair is authorized to declare the 
committee in recess at any point.
    Without objection, the gentlewoman from New York, Mrs. 
Carolyn B. Maloney, the Chair of the Committee on Oversight and 
Reform, will be permitted to participate in today's hearing.
    The gentlewoman from New Jersey, Mrs. Watson Coleman, shall 
assume the duties of the Chair in the event I run into any 
technical difficulties.
    I now recognize myself for an opening statement.
    Admiral Schultz, good morning. I am pleased you are 
appearing before the committee to discuss the Coast Guard's 
efforts to develop a culture of equity, inclusion, justice, and 
accountability.
    Today's hearing is part of the committee's long-running 
efforts to help the Coast Guard develop a diverse, inclusive 
environment free from harassment, bullying, assault, and 
retaliation. It is precisely because this committee supports 
the Coast Guard, its mission, and its people that we are 
committed to ensuring the service addresses the challenges it 
faces.
    I have long had concerns about the lack of diversity in the 
Coast Guard, especially among its officer ranks and among its 
leadership. The demographics of the Coast Guard fail to reflect 
the diversity of the American public. For example, only 5.6 
percent of active-duty members self-identify as Black or 
African American, compared to about 14 percent of the U.S. 
population.
    Fostering diversity is critical to building a culture that 
welcomes and celebrates varied perspectives and experiences and 
ensures the Coast Guard reflects the public it serves.
    Last weekend, we lost a trailblazer, as Commander Merle 
Smith, Jr., the first Black graduate of the Coast Guard 
Academy, passed away. We must honor his service by working to 
ensure more minority cadets enter and graduate from the 
Academy, which serves as a conduit to the service's leadership 
ranks.
    I am also thinking today of my late friend and colleague 
Elijah Cummings, who was fiercely dedicated to demanding 
accountability, protecting whistleblowers, and supporting the 
Coast Guard. I was pleased that language I authored to increase 
diversity and cultural competence at the Academy was included 
in last year's Coast Guard Authorization Act, which, fittingly, 
was named for Chairman Cummings.
    As we will discuss today, the Coast Guard has much further 
to go to ensure diversity and inclusion across the service.
    In 2019, this committee and the Oversight and Reform 
Committee investigated the Coast Guard's handling of 
allegations of harassment and bullying made by Lieutenant 
Commander Kimberly Young-McLear, a member of the Coast Guard 
Academy's faculty who is Black and identifies as lesbian.
    The investigation made clear that the Lieutenant 
Commander's allegations were never investigated properly and, 
as the Department of Homeland Security's Office of the 
Inspector General substantiated, she was retaliated against for 
raising these allegations.
    The committees issued a joint Majority staff report that 
highlighted significant problems with the Coast Guard policies 
and practices that contributed to the failure to fully and 
fairly investigate the allegations.
    The report also included 7 recommendations to improve 
investigative processes at the Academy and throughout the Coast 
Guard. I am glad the Coast Guard agreed with the committee on 
the need for major changes and concurred with all the 
recommendations, and I look forward to hearing from the 
Commandant about the status of their implementation.
    Unfortunately, Lieutenant Commander Young-McLear's 
experience is just one example of such issues within the Coast 
Guard. Since the Office of Inspector General first reported on 
her case in 2018, it has identified 3 additional instances of 
whistleblower retaliation within the service.
    In each case, a member of the Coast Guard reported 
misconduct, only to be retaliated against in the form of poor 
performance marks, removal from leadership positions, or other 
negative consequences. I find these reports extremely 
troubling. Violations of the Military Whistleblower Protection 
Act contribute to a culture of fear that discourages reporting 
of misconduct.
    The Office of Inspector General also issued a report in 
June 2020 documenting major cultural problems at the Coast 
Guard Academy. The report found problems with how the Academy 
investigated allegations of race-based harassment in 11 cases 
between 2013 and 2018. In 6 cases, the Academy did not 
thoroughly investigate the allegations or discipline cadets. In 
some instances, cadets committed similar misconduct again.
    Just last week, the committee received the Coast Guard 
report documenting disturbing trends in a number of sexual 
assault and harassment allegations. According to the Coast 
Guard, reports of sexual assault have more than doubled in the 
last 10 years, with 245 reports of sexual assault in fiscal 
year 2020 alone.
    This report follows a 2018 survey that found almost half of 
female cadets at the Academy said they were sexually harassed, 
and about 1 in 8 women said they had received unwanted sexual 
contact.
    Taken together, these reports should be setting off every 
alarm bell, warning light, and alert system at the Coast Guard 
headquarters and on every base, cutter, and air station. As the 
senior leader of the Coast Guard, Admiral Schultz is ultimately 
responsible for responding to this five-alarm fire, and I look 
forward to hearing his plan for putting it out.
    Unsurprisingly, this committee continues to hear from 
whistleblowers regarding disturbing allegations of sexual 
assault, harassment, bullying, retaliation, and mishandling of 
internal investigations.
    I have pressed the Coast Guard about some of these cases. 
In one case, a service member was recently granted a 
retroactive promotion after her performance suffered due to her 
supervisor's abusive and inappropriate behavior. It should not 
take Congressional intervention for the Coast Guard to do the 
right thing.
    While I understand there is a strong desire from the Coast 
Guard to be forward-looking, the service cannot reach its full 
potential if it does not learn from the past. I appreciate the 
Commandant has led efforts to address some of these issues, 
but, unfortunately, it is clear that those efforts are either 
falling short of what is needed or not making an impact quickly 
enough.
    The Coast Guard, with the help of this committee and 
stakeholders, must confront harassment, bullying, and 
retaliation head-on. The Coast Guard must do more than pay lip 
service to diversity, inclusion, and equity in press releases 
and in Congressional testimony; it must deliver results for the 
service members of the Coast Guard.
    Before I close, and without objection, I include the 
following statements in the record: A statement from Lieutenant 
Commander Kimberly Young-McLear, which outlines her experiences 
as a whistleblower and calls for service-wide cultural reforms; 
a statement from the American Federation of Government 
Employees, which describes concerns with several personnel 
issues and provides recommendations; and a statement from the 
New London chapter of the NAACP, which highlights complaints of 
racism that have been raised to their attention and requests a 
meeting with Admiral Schultz.
    [The information follows:]
    Statement of Commander (Select) Kimberly C. Young-McLear, Ph.D.
                             June 21, 2021
    Chairman Thompson, Ranking Member Katko, and distinguished Members 
of the committee, I am extremely grateful for the opportunity to 
provide this written statement in support of the Coast Guard achieving 
diversity, equity, and accountability within the service. In 2019, I 
publicly testified at the joint hearing before the subcommittees of the 
Oversight & Reform and Homeland Security. As I testified then, I am 
advocating for a better Coast Guard--one that America needs. We need 
real, systemic change to address a culture that severely lags behind 
our public-facing brand. I continue to have a unique lens as a senior 
active-duty Coast Guard officer; survivor; whistleblower; homeland 
security professional; scholar; educator; and diversity, equity, and 
inclusion practitioner. While we are continuing to make investments in 
the recapitalization of assets, shore infrastructure, and information 
technology, we must also make critical investments in our workforce. 
Meeting the complex National security environment of tomorrow demands 
our full attention to our greatest asset--our people. I write this 
statement with the full acknowledgement of all those who proudly served 
before me and those are still serving, many of whom have never received 
justice.
                               background
    1,768 days ago, the Coast Guard violated the Military Whistleblower 
Protection Act. 930 days ago, the Department of Homeland Security's 
Office of Inspector General (OIG) not only substantiated my claims of 
retaliation, but also revealed the cruelty and pervasiveness of how 
allegations are systematically swept under the rug. I endured more than 
5 years of bullying, harassment, discrimination, and retaliation, 
including suicide ideation in 2016. Additionally, retaliation never 
truly ends when the organizational culture is not centered on justice. 
All individuals (ranks O5 and above) from the 2018 DHS OIG 
Whistleblower Retaliation report and the 2019 Righting The Ship report 
were ultimately were protected and all have since been rewarded with 
promotions or competitive job assignments. These two public reports, 
however, were only the tip of the iceberg, not the totality of the 
intentional harm that was caused against me. Documents from my past 
complaints total over a thousand pages, include affidavits from 
Admirals and others which were later directly refuted by evidence 
uncovered by the DHS Inspector General. These documents, while not 
publicly shared, have been at the immediate disposal of the Coast Guard 
for several years. To this date, not a single member of the Coast Guard 
has ever been held accountable for these egregious violations.
    Disturbingly, there are still several major elements to my case 
that remain unaddressed, despite numerous opportunities by the current 
Commandant to take action. On February 22, 2019, then-Department of 
Homeland Security Secretary Nielsen, directed Admiral Schultz to take 
specific action following the findings of the DHS OIG retaliation 
report. In Secretary Nielsen's directed action memo, she underscored 
that her ``direction does not preclude you from taking other actions 
within your authority as you determine necessary.'' Yet, the Commandant 
denied my requests for a formal written apology, a meeting with the to 
discuss ways in which the culture must improve, and accountability. I 
continue to advocate for a Coast Guard the Nation needs, because 
similar egregious cases like what I endured continue to occur across 
our service. The top leadership and others in the Coast Guard have 
``moved on,''but I know that survivors like myself will not move on 
from these matters until there is real justice, accountability, and 
dignity for everybody.
                         the cost to the nation
    Building the Coast Guard the Nation needs is essential and urgent. 
The absence of diversity, equity, and accountability erodes our 
preparedness and agility to address National security threats and 
mission readiness. It also has a direct impact on our public trust and 
the dignity of those who voluntarily serve our Nation. Since testifying 
in December 2019, there has been an even higher rate of individuals 
contacting me in various stages of hopelessness, seeking guidance in a 
range of sensitive cases from sexual assault, toxic commands, hostile 
work environments, bullying, harassment, discrimination, and 
retaliation. Their cases are not isolated, but rather indicative of 
larger service-wide trends of sexual assault, bullying, anti-harassment 
& hate incident, and EEO complaints.
    The Coast Guard certainly has many strengths. As Commandant Admiral 
Schultz recently testified before the House Appropriations Subcommittee 
on Homeland Security in April 2021, he stated our culture is one that 
``entrusts and empowers its personnel at every level to lead with a 
bias for action--taking on-scene initiative and bringing solutions to 
complex problems.'' He continues to share that ``while extremely 
valuable in executing the service's missions, these traits may also 
serve to veil the true impacts of the Coast Guard's readiness 
challenges. As Coast Guard men and women take it upon themselves to 
accomplish the mission at all costs, the thousands of added hours 
required to overcome asset, technology, and infrastructure readiness 
issues drive workforce fatigue, and come at the expense of training and 
critical skills retention.''
    To offer different perspective, however, we also have an iceberg--a 
``plain sight and below the surface'' culture. We have some leaders 
that have a bias for action, or rather--inaction. This typically 
manifests in various forms of abuse of power leading to sweeping 
allegations of toxic and unlawful working environments further under 
the rug. Often times it is the complainant or victim that is seen as 
the ``complex problem'' needing solving, not the work environment or 
behaviors of perpetrators. Solutions may look like retaliation, 
silencing, gaslighting, victim blaming, isolating, or mishandling 
complaints. While the Coast Guard is seen in a highly visible way 
executing our missions, this can veil the true impact that toxic and 
unlawful environments have on mission readiness. As Coast Guard 
personnel tend to accomplish the mission at all costs, including 
survivors like myself who endured more than 5 years of workplace abuse, 
the thousands of added hours required to overcome toxic and unlawful 
climates drives workforce fatigue and comes at the expense of the 
retention of a diverse, equitable, and accountable workforce.
    To build a Coast Guard that America needs, leaders in the Coast 
Guard must change behaviors to expect different and equitable outcomes. 
Leaders must approach addressing our internal organizational culture 
with the same vigor, vocality, moral courage, integrity, dignity, 
transparency, and sense of urgency as ensuring for example, we receive 
a paycheck or executing our mission during a pandemic. We must 
normalize these behaviors in every pay grade and rank. We must 
institutionalize these behaviors across the implementation of every 
Coast Guard policy and program. A culture which lacks accountability 
when there are injustices, undeniably impacts our diversity and equity.
              2015 culture of respect report significance
    A 2015 baseline study into our service culture was conducted by 
workforce analysts at the Coast Guard's Force Readiness Command. In 
this study, the Coast Guard defined a ``Culture of Respect'' as an 
optimal state free from sexual assault, harassment, hazing, bullying, 
intimidation, discrimination, and retaliation. This team's final 
analysis about our own culture was never released to our workforce, 
despite no discernable personal identifying information of survivors 
who painstakingly shared their perspectives as part of the interview 
methodology. Analysts identified 41 distinctive gaps, along with 
recommendations of how to close them, between the current state of the 
Coast Guard culture and the optimal state. The 6 most common themes 
were 1. Accountability, 2. Leadership, 3. Data/Information, 4. Policy, 
5. Communications/Messaging, and 6. Training. Even in 2015, we had very 
clear knowledge that lack of accountability was the most common gap, 
yet the Coast Guard (as of 2019) had only implemented a mere handful of 
the total report recommendations. One 2015 recommendation made clear to 
repeat the study every 3.5 to 4 years to align with the Commandant's 
transition. Given the 2015 Culture of Respect report was only a 
baseline, the intent of repeating the study was to assess the 
effectiveness of any past recommendations, and decide if new measures 
would be needed to get the Coast Guard's culture to an optimal state.
    As a survivor, I continue to be extremely disheartened and 
disturbed to know that had the Coast Guard actually taken the 2015 
Culture of Respect report results seriously and implemented the vast 
majority of recommendations, then perhaps the years of bullying, 
harassment, intimidation, and retaliation I endured could have been 
prevented altogether. According to the Coast Guard's own report, they 
identified gaps such that ``policy or UCMJ violations vary between 
officer, enlisted, and civilian. In many cases where the accused is a 
high performer, interviewees said that they perceive that leaders focus 
on the positive performance rather than the violation, and, in essence, 
brush the problems `under the rug' . . . perpetrators of Culture of 
Respect issues escape accountability and instead resign, retire, or 
transfer.'' It is also then conceivable that some of the recent current 
workforce demographic representation trends, such as, from the 2019 
Defense Advisory Committee on Women in the Service (DACOWITS) and also 
the negative work environment factors revealed in the 2019 RAND Study 
on Improving Gender Diversity in the U.S. Coast Guard: Identifying 
Barriers to Female Retention, could have been properly addressed and 
mitigated earlier.
    We must, therefore, immediately address the root causes of our 
culture that is both in plain sight and below the surface. There is 
simply no valid reason for Admiral Schultz not ordering another study 
at the start of his tenure as Commandant, had one not been already 
initiated. There is no real justification for refusing to release the 
full report to the entire workforce, after years of requests, since he 
has been Commandant. There is no reasonable rationale for not directing 
resources, such as, the Vice Commandant, Master Chief Petty Officer of 
the Coast Guard, Deputy Commandant of Mission Support (DMCS), Civil 
Rights Directorate (CG-00H), Human Resources Directorate (CG-1), 
Performance Readiness Task Force (PRTF), to implement all remaining 
report recommendations. There has been clear avoidance and missed 
opportunities to leverage survivors; subject-matter experts; specific 
members of the Coast Guard's Affinity Group Council; and deckplate 
leadership, diversity advisory committees (LDACs) throughout the Coast 
Guard. The status quo must end. These decisions have all occurred under 
this Commandant. We now have an opportunity to conduct another study to 
better ensure the success of the incoming 27th Commandant of the Coast 
Guard. We must be honorable and allow the voices and stories of brave 
survivors' to be heard for the betterment of the Coast Guard. We must 
break this pattern of withholding information that will benefit the 
entire service, including survivors. For your committee's reference, I 
am enclosing a copy of the 2015 Culture of Respect Executive Summary.
                     cultural markers for progress
  <bullet> A culture where the bravery of our rescue swimmers is viewed 
        in the same light as those who have the courage to report 
        alleged misconduct in the workplace. Both can save lives.
  <bullet> A culture when perpetrators, and those who protect them, are 
        not promoted and advanced through the ranks, while those who 
        reporting wrongdoing are punished, retaliated against, or 
        pushed out. Both increases diversity, equity, and 
        accountability.
  <bullet> A culture that understands and eliminates tokenism. Symbolic 
        change is not a substitute for real, systemic change.
  <bullet> A culture where individuals have the psychological safety, 
        moral courage, and cultural competence to share the truth about 
        own workforce culture, even if this type of introspection as a 
        service is uncomfortable. Discomfort is growth.
  <bullet> A culture where transparency in data on suicides, 
        harassment, sexual assault, bullying, hazing, discrimination, 
        AHHI, EEO, etc is provided to the workforce and disaggregated 
        by race, gender, sexual orientation, and other demographics (as 
        applicable). We cannot fix what we fail to measure.
  <bullet> A culture that fully understands intersectionality and 
        equity. The leaders of the only group of anti-racist, 
        multicultural LGBTQIAP+ members of the workforce have been 
        denied the opportunity to meet with the Commandant to discuss 
        the urgent issues facing our communities, such as sexual 
        assault, transphobia, and bullying.
  <bullet> A culture that actually protects all types of complainants 
        and whistleblowers by holding perpetrators immediately 
        accountable and diligently working to restore dignity and 
        trust. We simply cannot be a model law enforcement and 
        humanitarian service otherwise.
  <bullet> A culture that centers on human dignity and worth. We must 
        issue a formal written apologies to survivors and other 
        remedies (should they desire), and immediately hold 
        perpetrators and those who condone perpetrators accountable.
  <bullet> A culture where we strive higher than minimal compliance and 
        ``good news stories,'' but has the maturity, integrity, and 
        honor to acknowledge when we fail and learn from those failures 
        because it is ethical and a critical investment in building a 
        Coast Guard the Nation needs.
                                closing
    We must always strive to be a just service. A just service will 
attract and retain a diverse, equitable, and accountable workforce 
within the Coast Guard. Last, I'm reminded of the activism of survivors 
like Dr. Olivia Hooker, who was the first African-American women to 
enlist in the Coast Guard. Before the 2007 Congressional hearing on the 
Tulsa-Greenwood Race Riot Claims Accountability Act, in reference to 
surviving the Tulsa Massacre, she stated ``as a child, I had believed 
every word of the Constitution, but after the riots happened, I 
realized that the Constitution did not include me.'' Similarly, we have 
an obligation to ensure that our core values, service policies, and 
laws include everyone in the Coast Guard, not simply on paper, but in 
daily practice. The past and on-going injustices that have occurred 
within the Coast Guard are a stain on our legacy, but it is also our 
actions that follow that determine our character. Achieving a just 
service will better ensure workforce resiliency and meeting the demands 
of an increasingly complex National security environment of tomorrow.
    Thank you to my wife, family, friends, and colleagues for your 
never-ending support. Thank you, Members of Congress, for your 
continued support of the individuals of the Coast Guard, and for the 
opportunity to provide my written statement.
                                 ______
                                 
 Letter From the American Federation of Government Employees, AFL-CIO 
                                 (AFGE)
                                     June 23, 2021.

    Chairman Thompson, Ranking Member Katko, and Members of the 
Committee: The American Federation of Government Employees, AFL-CIO 
(AFGE), which represents 700,000 Federal and District of Columbia 
employees in 70 agencies, including more than 3,000 civilian employees 
of the Coast Guard, thanks the committee for holding this important 
hearing today, ``Building the Coast Guard America Needs: Achieving 
Diversity, Equity, and Accountability within the Service.'' The title 
of this hearing represents a crucial goal for the Coast Guard that is 
fundamental to AFGE's mission: Without diversity, equity, and 
accountability, America does not receive the very best from this 
Service.
    AFGE's members at the Coast Guard provide critical support to the 
Service, including in human resources, engineering and logistics, 
information technology and cyber security. The civilian personnel 
provide support so that Service is better prepared to be responsive to 
America's needs in all of its operations. That is why some of the 
policies and culture of the Coast Guard must be examined and addressed 
to ensure all of its people are treated fairly and have equal 
opportunities in their work. We present three specific concerns and 
recommendations to address them.
    First is fairness and transparency in hiring and promotion. When 
officers retire from active service, it is not uncommon that they go 
home on a Friday from that service and show up on a Monday as a high-
level civilian employee. They enter positions that were never posted 
and where civilian personnel were never offered the opportunity to 
compete for promotions. Typically, these are positions at the GS-12 
level and higher and they go to white males. There are rarer occasions 
where lower-graded positions go to immediate service retirees. These 
positions are more likely to go to men of color. Very rarely, the jobs 
may be awarded to women.
    Hiring almost exclusively from active-duty retirees precludes 
taking advantage of the expertise from within the current civilian 
workforce where we represent individuals in positions up to a GS-14 
grade. AFGE recommends that the Coast Guard thoroughly review its 
civilian hiring and promotion practices and report to the committee on 
its findings. This report should examine the practice of hiring active 
duty into civilian positions, and the race and gender of these new 
hires, the General Schedule grade of the positions into which these 
individuals are hired, other opportunities for promotion the civilian 
workforce is either afforded or excluded from and the result of that 
hiring practice. The Coast Guard should be transparent about who is 
moving from uniformed personnel to civilian positions, the skills 
required for those positions and how they compare with the skills of 
those in the existing civilian workforce.
    Second among AFGE's concerns with regard to diversity, equity, and 
accountability is the overly internal and opaque practice the Coast 
Guard undergoes when civilian personnel report on their experiences of 
discrimination. The Coast Guard engages in an ``Anti-Hate and 
Harassment Investigation'' (AHHI) process. This investigation under 
AHHI is conducted internally and the commanding officer makes the 
decision as to whether there are grounds to pursue the complaint. It is 
reportedly quite rare that this process results in a finding of 
sufficient grounds for any pursuit of the complaint or recommendation 
for policy changes or punishment. The findings are not publicly 
available.
    This process is at best confusing for the employee because they are 
told an investigation will take place, but they are not advised that 
this internal investigation has no bearing on an Equal Employment 
Opportunity (EEO) violation. This results in the employee refraining 
from filing an EEO complaint within the deadline to do so because they 
may not understand that AHHI is a separate process and does not provide 
Federal EEO relief. By the time the internal AHHI complaint is 
concluded, the employee has missed his or her window to file a more 
comprehensive EEO complaint. AFGE recommends that the Coast Guard ban 
the practice of informing the employee of this internal process at its 
outset, provide them with information they need to file an EEO 
complaint and review what may be made public about its internal AHHI 
process. The Coast Guard should further report to this committee on the 
effectiveness of the AHHI process, whether it is right to leave the 
finding up to the CO, or whether a more independent body and process 
would yield fairer results. We recommend this includes race and gender 
data with regard to results of the AHHI filings and recommendations.
    Finally, our Coast Guard union leadership finds it very difficult 
to assist in cases where an employee is seeking reasonable 
accommodation for disability. This can range from a request for a 
``vari-desk'' which others have use of in the Coast Guard workplace, to 
continued full telework because a doctor has advised an employee that 
they are in a high-risk category for serious negative effects of 
contracting COVID-19 and should not be in the workplace as the agency 
develops its reconstitution plan. This has been true even for employees 
whose work can be performed completely in a remote environment. We note 
that outside of the exceptional instance of emergency telework during 
the COVID-19 pandemic, our union contract provides for up to 4 days per 
week of telework. AFGE strongly recommends that the Coast Guard honor 
its contract and review its standards for providing telework, so at a 
minimum it adheres to the union contract and that it give particular 
consideration to expanding telework, especially for those who are 
medically fragile. AFGE further recommends that the agency review the 
requests for reasonable accommodation, the reasons why they were 
accepted or denied, and provide to the committee a justification for 
any reasonable accommodations that have been denied in the past 5 
years.
    AFGE and its Coast Guard civilian employees appreciate the 
opportunity to provide the House Homeland Security Committee our 
recommendations for measures that will improve the workplace with 
regard to diversity, equity, and accountability. We fully believe that 
all employees of the Coast Guard should know they are valued and have 
equal opportunities for advancement and fairness in the work place. We 
look forward to working with you to advance these practical and 
transformational recommendations.
                                 ______
                                 
                    Letter From the New London NAACP
                                     June 18, 2021.

    To the Honorable Chairman Bennie G. Thompson; To the Ranking Member 
John Katko and other distinguished Members of the Committee on Homeland 
Security; we the members of the Greater New London Connecticut Branch 
of the NAACP are grateful for the opportunity to participate in this 
very important hearing on ``Building the Coast Guard America Needs: 
Achieving Diversity, Equality, and Accountability within the Service''.
    Through the years, the New London NAACP has been the repository for 
civil rights complaints from our men and women who serve. Those who 
complained represent a broad spectrum of service members, including 
active duty, those who previously served in addition to those who 
provide a contracted service for the Academy. The grievances are all 
the same; racial discrimination, racial profiling, micro-aggressions, 
bias, disparate treatment, disparate discipline and poor recruitment 
initiatives and retention outcomes. Racism hurts and attacks the body 
and spirit of an able-bodied service person. Human dignity is an 
inviolable and inalienable right, one in which our brave service men 
and women fight to secure. We, the Members of the NAACP, aspire to 
experience a more perfect Academy.
    As such, the New London NAACP has been actively engaged with the 
USCGA for many years and applaud the local efforts to build a more 
diverse and inclusive institution. But impactful leadership is clearly 
recognized in both thoughts and deeds and it flows freely and 
unobstructed from the top down. We, the Members of the New London NAACP 
are not, at this point prepared to say that Admiral Schultz 
demonstrates the capacity to reimagine and reinforce a more equitable 
Academy. The NAACP has appealed to his office with requests to meet, 
those requests have gone unanswered. The silence from the Admiral's 
office speaks volumes.
    The cooperation and timeliness in response on the local level is to 
be commended. The NAACP was recently made aware of a racial profiling 
incident involving a contracted provider and a Master Chief. The 
allegations also alleged disparate assignments based on race. While the 
details of the investigation have yet to be divulged; the NAACP was 
assured by RADM William Kelly that measures are in place to ensure that 
contracted providers exemplify and embrace the Academy's core values.
    Finally, we the Members of the New London NAACP would like to thank 
the Honorable Bennie G. Thompson and the Members of the Committee on 
Homeland Security for their interest and dedication to this important 
issue and we look forward to partnering in ``Building the Coast Guard 
America Needs''.
            Respectfully,
                                            Jean M. Jordan,
                                                         President,
                                          Tamara K. Lanier,
                                                    Vice President,
                        The Greater New London CT NAACP Membership.

    Chairman Thompson. Admiral Schultz, I hope you will commit 
to reading these statements and responding to the concerns they 
raise.
    The committee looks forward to hearing from you today on 
how you plan to achieve diversity, equity, and accountability 
in the Coast Guard.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                             June 23, 2021
    Admiral Schultz, I am pleased you are appearing before the 
committee to discuss the Coast Guard's efforts to develop a culture of 
equity, inclusion, justice, and accountability. Today's hearing is part 
of this committee's long-running efforts to help the Coast Guard 
develop a diverse, inclusive environment free from harassment, 
bullying, assault, and retaliation. It is precisely because this 
committee supports the Coast Guard, its mission, and its people that we 
are committed to ensuring the service addresses the challenges it 
faces.
    I have long had concerns about the lack of diversity in the Coast 
Guard, especially among its officer ranks and among its leadership. The 
demographics of the Coast Guard fail to reflect the diversity of the 
American public. For example, only 5.6 percent of active-duty members 
self-identify as Black or African American, compared to about 14 
percent of the U.S. population.
    Fostering diversity is critical to building a culture that welcomes 
and celebrates varied perspectives and experiences and ensures the 
Coast Guard reflects the public it serves. Last weekend, we lost a 
trailblazer as Commander Merle Smith Jr., the first Black graduate of 
the Coast Guard Academy, passed away. We must honor his service by 
working to ensure more minority cadets enter and graduate from the 
Academy, which serves as a conduit to the service's leadership ranks.
    I am also thinking today of my late friend and colleague, Elijah 
Cummings, who was fiercely dedicated to demanding accountability, 
protecting whistleblowers, and supporting the Coast Guard. I was 
pleased that language I authored to increase diversity and cultural 
competence at the Academy was included in last year's Coast Guard 
Authorization Act--which, fittingly, was named for Chairman Cummings. 
As we will discuss today, the Coast Guard has much further to go to 
ensure diversity and inclusion across the service.
    In 2019, this committee and the Oversight and Reform Committee 
investigated the Coast Guard's handling of allegations of harassment 
and bullying made by Lieutenant Commander Kimberly Young-McLear, a 
member of the Coast Guard Academy's faculty who is Black and identifies 
as lesbian. The investigation made clear that the Lieutenant 
Commander's allegations were never investigated properly, and as the 
Department of Homeland Security Office of the Inspector General 
substantiated, she was retaliated against for raising the allegations.
    The committees issued a joint Majority staff report that 
highlighted significant problems with Coast Guard policies and 
practices that contributed to the failure to fully and fairly 
investigate the allegations. The report also included 7 recommendations 
to improve investigative processes at the Academy and throughout the 
Coast Guard. I am glad the Coast Guard agreed with the committees on 
the need for major changes and concurred with all the recommendations, 
and I look forward to hearing from the Commandant about the status of 
their implementation. Unfortunately, Lieutenant Commander Young-
McLear's experience is just one example of such issues within the Coast 
Guard.
    Since the Office of the Inspector first reported on her case in 
2018, it has identified 3 additional instances of whistleblower 
retaliation within the service. In each case, a member of the Coast 
Guard reported misconduct only to be retaliated against in the form of 
poor performance marks, removal from leadership positions, or other 
negative consequences. I find these reports extremely troubling. These 
violations of the Military Whistleblower Protection Act contribute to a 
culture of fear that discourages reporting of misconduct.
    The Office of the Inspector General also issued a report in June 
2020 documenting major cultural problems at the Coast Guard Academy. 
The report found problems with how the Academy investigated allegations 
of race-based harassment in 11 cases between 2013 and 2018. In 6 cases, 
the Academy did not thoroughly investigate the allegations or 
discipline cadets. In some instances, cadets committed similar 
misconduct again. Just last week, the committee received a Coast Guard 
report documenting disturbing trends in the numbers of sexual assault 
and harassment allegations.
    According to the Coast Guard, reports of sexual assault have more 
than doubled in the last 10 years, with 245 reports of sexual assault 
in fiscal year 2020 alone. This report follows a 2018 survey that found 
almost half of female cadets at the Academy said they were sexually 
harassed, and about 1 in 8 women said they had received unwanted sexual 
contact. Taken together, these reports should be setting off every 
alarm bell, warning light, and alert system at Coast Guard Headquarters 
and on every base, cutter, and air station.
    As the senior leader of the Coast Guard, Admiral Schultz is 
ultimately responsible for responding to this five-alarm fire, and I 
look forward to hearing his plans for putting it out. Unsurprisingly, 
this committee continues to hear from whistleblowers regarding 
disturbing allegations of sexual assault, harassment, bullying, 
retaliation, and mishandling of internal investigations. I have pressed 
the Coast Guard about some of these cases.
    In one case, a service member was recently granted a retroactive 
promotion after her performance suffered due to her supervisor's 
abusive and inappropriate behavior. It should not take Congressional 
intervention for the Coast Guard to do the right thing. While I 
understand there is a strong desire from the Coast Guard to be forward-
looking, the service cannot reach its full potential if it does not 
learn from the past.
    I appreciate that the Commandant has led efforts to address some of 
these issues, but unfortunately it is clear those efforts are either 
falling short of what is needed or not making an impact quickly enough. 
The Coast Guard, with the help of this committee and stakeholders, must 
confront harassment, bullying, and retaliation head-on. The Coast Guard 
must do more than pay lip service to diversity, inclusion, and equality 
in press releases and Congressional testimony; it must deliver results 
for the service members of the Coast Guard.

    Chairman Thompson. With that, I recognize the Ranking 
Member, the gentleman from New York, Mr. Katko, for an opening 
statement.
    Mr. Katko. Thank you, Mr. Chairman. Thank you for having 
this most important discussion today. It is part of our solemn 
duty and oversight to deal with issues like these. 
Unfortunately, I don't think it is unique to the Coast Guard, 
and it is issues that we need to discuss and vet throughout the 
military, and this is the way to do it. So thank you.
    I want to welcome everybody here on both sides of the aisle 
and my good friend from New York, Mrs. Maloney, who is a pinch-
hitter today, it looks like. So welcome aboard.
    I also want to thank our Nation's 26th Commandant, Admiral 
Karl Schultz, for appearing before this committee today to 
discuss progress he has made moving forward with diversity and 
inclusion efforts at the Coast Guard. It is far from a complete 
process, but we do have to recognize the things that he is 
doing to move this ball forward.
    As Admiral Schultz noted in his written testimony, ``To 
remain the world's best Coast Guard, we must be the world's 
most diverse and inclusive Coast Guard. Anything less means 
that we will fail to garner the talent, innovation, creativity, 
and performance necessary to meet the challenges of an 
increasingly complex maritime operating environment.''
    I agree with his sentiment, and I look forward to 
discussing these and other issues at today's hearing so that we 
can all achieve that goal.
    I want to thank the Commandant for his hard work in 
recruiting and retaining a diverse Coast Guard service. Since 
becoming the Commandant in June 2018, Admiral Schultz and his 
leadership team have focused on increasing the recruitment and 
retention of women and underrepresented minorities. He has 
taken a number of proactive steps that have helped make the 
Coast Guard a strong and contemporary branch of the Armed 
Forces. I applaud him for his efforts and am interested to hear 
more about the initiatives he has advanced.
    That said, I am sure he and all upstanding service members 
in the Coast Guard would agree that any allegations of bias, 
harassment, or other misconduct should be taken seriously and 
thoroughly and competently investigated.
    The allegations mentioned by Chairman Thompson are serious 
in nature for sure, and I appreciate the opportunity that this 
hearing will provide the Commandant to articulate why our men 
and women in uniform are a part of a service committed to 
rooting out bad apples and ending misconduct.
    I also believe that, on the whole, the Coast Guard has a 
positive story to tell in regard to its culture. I look forward 
to hearing more about that today.
    The Coast Guard has an increasingly complex, difficult 
mission and is facing a number of critical homeland security 
challenges beyond those related to the scope of this hearing 
today. Indeed, this service faces strategic headwinds related 
to a changing Arctic; addressing illegal, unreported, and 
unregulated fishing in the Pacific; countering Russian and 
Chinese aggression; as well as evolving threats of drug and 
human smuggling stemming from the on-going border crisis.
    In reality, the Coast Guard is on the front lines of a 
rapidly-evolving geopolitical landscape and is being forced to 
accomplish its complex multimission with increasingly strained 
resources. That is why I am deeply troubled by the anemic 
funding levels proposed by this administration, which would 
slash Coast Guard funding apart from limited salary 
enhancements.
    While funding challenges for the service are not new, the 
Coast Guard is a branch of America's Armed Forces and is truly 
on the front lines of our Nation's National security--and those 
front lines are expanding, particularly with respect to the 
Arctic--while they are also being tasked with law enforcement 
missions critical to the homeland. Unfortunately, the 
administration's budget fails to support our men and women in 
uniform in this and many other ways.
    Additionally, I hope to hear about the unique set of 
challenges facing the Coast Guard in protecting our Northern 
Border, where districts such as my own in central New York face 
their own set of threats with limited Federal resources 
available to help mitigate them.
    Despite these budgetary constraints, I look forward to 
discussing how the Coast Guard is positioned to defend our 
homeland and National security interests with a diverse work 
force.
    I want to thank the Chairman, as always, and I yield back 
the balance of my time.
    [The statement of Ranking Member Katko follows:]
                 Statement of Ranking Member John Katko
    Thank you, Chairman Thompson, and thank you for having this most 
important discussion today. It is part of our solemn duty and oversight 
to deal with issues like these. I want to thank our Nation's 26th 
Commandant, Admiral Karl Schultz, for appearing before this committee 
today to discuss progress he has made moving forward with diversity and 
inclusion efforts at the Coast Guard. It's far from a complete process 
but we need to recognize the things he is doing to move this ball 
forward. As Admiral Shultz noted in his written testimony, ``to remain 
the world's best Coast Guard, we must be the world's most diverse and 
inclusive Coast Guard. Anything less means that we will fail to garner 
the talent, innovation, creativity, and performance necessary to meet 
the challenges of an increasingly complex maritime operating 
environment.'' I agree with his sentiment and look forward to 
discussing these and other issues at today's hearing.
    I want to thank the Commandant for his hard work in recruiting and 
retaining a diverse Coast Guard service. Since becoming the Commandant 
in June 2018, Admiral Schultz and his leadership team have focused on 
increasing the recruitment and retention of women and under-represented 
minorities. He has taken a number of proactive steps that have helped 
make the Coast Guard a strong and contemporary branch of the Armed 
Forces. I applaud him for his efforts and am interested to hear more 
about the initiatives he has advanced.
    That said, I am sure he and all upstanding service members in the 
Coast Guard would agree that any allegations of bias, harassment, or 
other misconduct should be taken seriously and thoroughly investigated. 
The allegations mentioned by Chairman Thompson are serious in nature, 
and I appreciate the opportunity that this hearing will provide the 
Commandant to articulate why our men and women in uniform are a part of 
a service committed to rooting out bad apples and ending misconduct. I 
also believe that, on the whole, the Coast Guard has a positive story 
to tell in regard to its culture, and I look forward to hearing more 
about that today.
    The Coast Guard has an increasingly complex, difficult mission and 
is facing a number of critical homeland security challenges beyond 
those related to the scope of this hearing today. Indeed, the service 
faces strategic headwinds related to a changing Arctic, addressing 
illegal, unreported, and unregulated fishing in the Pacific, countering 
Russian and Chinese aggression, as well as evolving threats of drug and 
human smuggling stemming from the on-going border crisis.
    In reality, the Coast Guard is on the front lines of a rapidly-
evolving geopolitical landscape and is being forced to accomplish its 
complex multi-mission remit with increasingly strained resources. That 
is why I was deeply troubled by the anemic funding levels proposed by 
the Biden administration, which would slash Coast Guard funding apart 
from limited salary enhancements. While funding challenges for the 
service are not new, the Coast Guard is a branch of America's Armed 
Forces and is truly on the front lines of our Nation's National 
security, and those front lines are expanding especially with respect 
to the Arctic, while also being tasked with law enforcement missions 
critical to the homeland. Unfortunately, the Biden budget fails to 
support our men and women in uniform in this and many other ways.
    Additionally, I hope to hear about the unique set of challenges 
facing the Coast Guard in protecting our Northern Border, where 
districts such as my own in Central New York face their own set of 
threats with limited Federal resources available to help mitigate them.
    Despite these budgetary constraints, I look forward to discussing 
how the Coast Guard is positioned to defend our homeland and National 
security interests with a diverse workforce.
    Thank you, Mr. Chairman, and I yield back the balance of my time.

    Chairman Thompson. Thank you.
    I now recognize the Chair of the Oversight and Reform 
Committee, the gentlewoman from New York, Mrs. Carolyn Maloney, 
for an opening statement.
    Mrs. Maloney. Thank you, Chairman Thompson. Thank you for 
inviting me to participate in today's important hearing and for 
your committee's unwavering commitment to ensuring that the 
U.S. Coast Guard operates in an effective, efficient, 
accountable manner.
    Nearly 3 years ago, then-Ranking Member Thompson and then-
Ranking Member Elijah Cummings of the Oversight Committee, 
which I now Chair, embarked on an 18-month joint investigation 
into allegations of harassment and bullying within the Coast 
Guard, including the mishandling of harassment complaints and 
retaliation.
    Our investigation revealed deeply troubling evidence of 
failure by Coast Guard leadership to conduct prompt and 
thorough investigation into allegations of harassment and 
bullying, failure to hold officials accountable for deficient 
investigations, and failure to take corrective action to 
address retaliation against individuals who report harassment 
and bullying.
    After reviewing thousands of papers--of documents and 
conducting interviews with Coast Guard personnel, our 2 
committees issued a joint staff report with our investigative 
findings. The report made 7 recommendations, and I am pleased 
that the Coast Guard agreed to accept all 7.
    However, recent events show that much work remains to be 
done. In June 2020, the Department of Homeland Security IG 
issued a report on race-based harassment allegations at the 
Coast Guard Academy and found that more than two-thirds of the 
allegations it reviewed over a 6-year period were not properly 
handled by the Academy. In December 2020, the DHS IG released 
another report that substantiated whistleblower retaliation 
against a Coast Guard member, in clear violation of the 
Military Whistleblower Protection Act. Just last week, the 
Coast Guard issued its sexual assault report for fiscal year 
2020 to Congress, reporting an increase in sexual assault 
allegations over the past year.
    These recent developments make clear the urgent and on-
going need for action to correct the disturbing pattern of 
harassment, retaliation, racism, and discrimination within the 
Coast Guard.
    I am so pleased that Admiral Schultz has agreed to testify 
on these matters. Our late Chairman Cummings worked tirelessly 
and passionately for years to improve the Coast Guard and never 
shied away from holding the Coast Guard to the high standards 
that we should expect from all branches of our military.
    I am honored to be able to continue the incredible work of 
Chairman Cummings, along with Chairman Thompson. We must 
protect those who dedicate their lives to protecting us. It is 
our duty, Admiral Schultz, and it is our duty in Congress.
    Thank you.
    I yield back.
    [The statement of Hon. Maloney follows:]
               Statement of Chairwoman Carolyn B. Maloney
    Chairman Thompson, thank you for inviting me to participate in 
today's important hearing, and for your committee's unwavering 
commitment to ensuring that the U.S. Coast Guard operates in an 
effective, efficient, and accountable manner.
    Nearly 3 years ago, then-Ranking Member Thompson and then-Ranking 
Member Elijah Cummings of the Oversight Committee--which I now chair--
embarked on an 18-month joint investigation into allegations of 
harassment and bullying within the Coast Guard, including the 
mishandling of harassment complaints and retaliation. Our investigation 
revealed deeply troubling evidence of failure by Coast Guard leadership 
to conduct prompt and thorough investigations into allegations of 
harassment and bullying, failure to hold officials accountable for 
deficient investigations, and failure to take corrective action to 
address retaliation against individuals who report harassment and 
bullying.
    After reviewing thousands of pages of documents and conducting 
interviews with Coast Guard personnel, our 2 committees issued a joint 
staff report with our investigative findings. The report made 7 
recommendations, and I'm pleased that the Coast Guard agreed to accept 
all 7.
    However, recent events show that much work remains to be done.
    In June 2020, the Department of Homeland Security Inspector General 
issued a report on race-based harassment allegations at the Coast Guard 
Academy, and found that more than two-thirds of the allegations it 
reviewed over a 6-year period were not properly handled by the Academy.
    In December 2020, the DHS IG released another report that 
substantiated whistleblower retaliation allegations against a Coast 
Guard Member in clear violation of the Military Whistleblower 
Protection Act.
    And just last week, the Coast Guard issued its sexual assault 
report for fiscal year 2020 to Congress, reporting an increase in 
sexual assault allegations over fiscal year 2019.
    These recent developments make clear the urgent and on-going need 
for action to correct the disturbing pattern of harassment, 
retaliation, racism, and discrimination within the Coast Guard.
    I am pleased that Admiral Schultz has now agreed to testify on 
these important matters.
    Our late Chairman Cummings worked tirelessly and passionately for 
years to improve the Coast Guard and never shied away from holding the 
Coast Guard to the high standards that we should expect from all 
branches of our military.
    I am honored to be able to continue the incredible work of Chairman 
Cummings along with Chairman Thompson.
    We must protect those who dedicate their lives to protecting us. It 
is your duty, Admiral Schultz, and it is our duty in Congress. Thank 
you, I yield back.

    Chairman Thompson. Other Members of the committee are 
reminded that, under the committee rules, opening statements 
may be submitted for the record.
    Members are also reminded that the committee will operate 
according to the guidelines laid out by the Chairman and 
Ranking Member in our February 3 colloquy regarding remote 
procedures.
    Again, I welcome our witness, Admiral Schultz.
    Without objection, the Admiral's full statement will be 
inserted in the record.
    I now ask Admiral Schultz to summarize his statement for 5 
minutes.

STATEMENT OF ADMIRAL KARL L. SCHULTZ, COMMANDANT, UNITED STATES 
                          COAST GUARD

    Admiral Schultz. Good morning, Chairman Thompson, 
Chairwoman Maloney, Ranking Member Katko, Ranking Member Comer, 
and Members of the committee. I appreciate the opportunity to 
testify before you today, and I appreciate, Chairman, you 
entering my written statement for the record.
    Chairman, I also appreciate you recognizing the loss of 
Commander Merle Smith, who was a trailblazer and extraordinary 
coastguardsman, heroic in combat, and truly stayed linked to 
the Coast Guard Academy and leaves a long legacy there. We 
extend our sympathies to his wife, Lynda, and family.
    Let me begin by thanking you, the committee leadership, for 
your support of the United States Coast Guard in our endeavor 
to create a fully inclusive Coast Guard where everyone can 
contribute the full power of their diverse backgrounds, 
experience, and thoughts.
    I agree with our Commander-in-Chief when he said that equal 
opportunity is the bedrock of American democracy and diversity 
is one of our country's greatest strengths. The Coast Guard's 
greatest strength is our people. I believe it is critical to 
foster a culture of inclusion where we focus on achieving fair 
and equitable outcomes for all who serve.
    The Coast Guard must be a learning organization. It is 
``commanders' business,'' as I term it, to ensure every Coast 
Guard member can contribute the full power of their 
backgrounds, experiences, and thoughts. We have not always 
gotten that right. Today, I want to assure the committee that I 
am listening, that your Coast Guard is listening, and we have 
and continue to take decisive action.
    When I became Commandant in June 2018, I made readiness my 
top priority for the service. Coast Guard readiness has and 
always will begin with our people. We are dedicated to 
inclusive workplaces that mirror the great diversity of the 
American people we are honored to serve. We have made 
significant progress, which I hope to highlight for you, but 
this is on-going work, and we must drive continuous improvement 
across the service.
    The release of our Diversity and Inclusion Action Plan, the 
DIAP, last summer was a big step forward. The Diversity and 
Inclusion Action Plan identifies tangible actions to improve 
diversity and inclusion, hold leadership accountable, and equip 
commanders with a standard set of resources.
    To facilitate these efforts, we have prioritized the 
training and deployment of diversity change agents, who conduct 
diversity and inclusion training, coaching, and support to the 
total work force. By summer's end, we will have 125 change 
agents trained and able to lead training across the service at 
hundreds of units each year.
    We continue to assess programs for their outcomes. We 
implemented improvements to our College Student Pre-
Commissioning Initiative, or CSPI, as it is better known, to 
increase the opportunities for individuals with diverse 
backgrounds to enter our officer ranks. We created a new 
officer recruiting branch, adding recruiters to key geographic 
locations to enhance the CSPI program as well as our other 
officer accession programs.
    Only by improving awareness of the career opportunities the 
Coast Guard offers will we be able to identify and increase the 
diversity of our candidate pools. This is fundamental to our 
strategy of building a Coast Guard that is increasingly 
reflective of the American public we have the privilege to 
serve.
    As a result of what we learned from the RAND Women's 
Retention Study, we have implemented work force initiatives, 
including updates to parental leave policies which authorize up 
to 120 days of leave. We have created a Reserve Component 
support or backfill program to help units maintain readiness 
when active-duty members step out on parental leave. We have 
updated uniform and grooming standards, adjusted assignment 
policies, and modernized the body composition program. We are 
seeing exciting early indicators that the 5-12 percent 
retention gap across the course of a 20-year career identified 
by the RAND study is narrowing significantly.
    This summer, we anticipate receiving the results of another 
RAND study, commissioned to identify barriers in the 
recruitment and retention of our underrepresented active-duty 
Coast Guard work force. Early findings indicate access to 
mentors is important. Hence, we recently launched a new mobile-
enhanced mentoring app to better connect mentors with mentees 
within and across the service.
    Our work eliminating incidents of harassment, bullying, and 
retaliation continues in earnest. We have implemented all 16 
recommendations from the December 2018 DHS Inspector General 
Report of Investigation, the December 2019 ``Righting the 
Ship'' Majority staff Congressional report, and the June 2020 
DHS Inspector General audit.
    Our updated anti-harassment and hate incident policies have 
greatly improved the manner in which we address allegations. We 
refined investigative procedures and processing time lines to 
expedite adjudication of complaints. We mandated additional 
training and enhanced selection criteria for investigators, and 
now investigators are appointed from outside the immediate 
chain of command. These changes add fairness and transparency 
to the investigative process.
    In 2019, I issued a strategic vision for the Coast Guard 
Academy, I believe the first of its kind, and updated and 
subsequently added new positions to address spans of control 
and better link our academy to the broader service.
    We have added additional oversight and prioritized creating 
a fully inclusive learning and training environment, making 
sure that the Academy and the Leadership Development Center co-
located there are not only producing leaders for a diverse and 
inclusive Coast Guard but that they represent the diverse and 
inclusive work force we are trying to build.
    So, in closing, this work continues and commands my 
attention and that of our entire senior leadership team. As the 
Coast Guard continues our efforts, I look forward to working 
with our Congressional overseers to pursue the necessary 
resources to effect change and to ensure we are focused on the 
proper and top priorities.
    Just as the 2018 OIG report and the 2019 ``Righting the 
Ship'' report were catalysts for our intensive review of 
systems and processes, your support will be vital to our 
ability to recruit, train, and retain a diverse work force, the 
centerpiece of Coast Guard readiness.
    Thank you for the opportunity to testify. I welcome your 
questions.
    [The prepared statement of Admiral Schultz follows:]
             Prepared Statement of Admiral Karl L. Schultz
                             June 23, 2021
                              introduction
    Good morning Chairman Thompson, Chairwoman Maloney, Ranking Member 
Katko, Ranking Member Comer, and distinguished Members of the 
committee. Thank you for the opportunity to discuss Coast Guard efforts 
to develop a culture of diversity, equity, inclusion, justice, and 
accountability. Since assuming my role as Commandant in 2018, I have 
made it a top strategic priority to establish the Coast Guard not only 
as a premier maritime Service, but as an employer of choice that 
reflects the public we serve. I agree with our Commander-in-Chief when 
he said that equal opportunity is the bedrock of American democracy and 
diversity is one of our country's greatest strengths. Furthermore, I 
believe it is critical to foster a culture of inclusion where we focus 
on achieving fair and equitable outcomes for all that serve and 
accountability for wrongdoing that is swift and transparent. In 
coordination with this committee and the Congress, we have made 
significant strides to recruit, retain, and advance a diverse 
workforce, create lasting and powerful change, and enhance the culture 
and climate of the Service. I look forward to discussing our shared 
successes, and my vision of how we will continue this necessary work to 
evolve as a Service.
    In order to be a premier maritime Service and an employer of 
choice, we must be the world's most inclusive and diverse Coast Guard. 
A Coast Guard where every member can contribute the full power of their 
diverse backgrounds, experiences, and thoughts. Anything less, and we 
will fail to garner the talent, innovation, creativity, and performance 
necessary to meet the challenges of an increasingly complex and 
technologically sophisticated maritime operating environment.
    Advancing and sustaining the Diversity and Inclusion acumen of a 
55,000-person organization requires strategic direction and sustained 
focus and engagement from all levels. The Coast Guard's Diversity and 
Inclusion Action Plan (DIAP) identifies tangible actions to improve 
Diversity and Inclusion (D&I), measure outcomes, hold leadership 
accountable, and most importantly, equip unit commanders with a 
standard set of resources to promote a diverse and inclusive working 
environment.
    Our plan guides the development of individual and organizational 
understanding and skills through dialog. The guiding principles found 
in the DIAP aid leaders and members in understanding responsibilities, 
tools, and capabilities of the Coast Guard to culminate in 
strengthened, inclusive leadership, diversity, and improved 
accountability. The DIAP formalizes the Coast Guard's continued 
dedication to the assessment and development of policies and 
procedures. It also develops workforce training to help drive 
organizational change and lead to more inclusive behaviors. To 
facilitate these efforts, we prioritized the training and deployment of 
Diversity Change Agents. These Change Agents provide diversity and 
inclusion training, coaching, and support to the total workforce; 
provide command cadre coaching and counsel; and support the fostering 
of an organizational culture that values respect, diversity, equity, 
and inclusion. By the end of this summer, the Coast Guard will have 125 
Change Agents fully trained and able to lead unit-level training.
    While the DIAP represents bold steps to promote diversity and 
inclusion, we continue to assess our programs for equitable outcomes. 
Recent improvements to our College Student Pre-Commissioning (CSPI) 
program were implemented to create more diversity within the officer 
ranks. CSPI targets minority-serving institutions (MSIs), including 
Historically Black Colleges and Universities, Hispanic Serving 
Institutions, Tribal Colleges and Universities, and Asian American and 
Native American Pacific Islander-Serving Institutions. MSIs set up a 
pathway for a larger pool of candidates to be exposed to the Coast 
Guard and the CSPI program. They provide visibility of Coast Guard 
missions to students who are eligible for the CSPI program, open doors 
for recruiters to develop relationships with students and staff at 
colleges and universities and provide financial support through the 
Student Loan Repayment Program. The Coast Guard recently created a new 
officer recruiting branch which will stand up this summer. These 
active-duty officer recruiters were added to offices in key locations 
around the country including Washington, DC, Hampton Roads, Atlanta, 
Miami, and New Orleans to specifically enhance the CSPI program.
    The Women's Retention Study and Holistic Analysis, delivered in 
March 2019 and undertaken in partnership with RAND's Homeland Security 
Operational Analysis Center, included 191 focus groups with 1,010 
active-duty women and 128 active-duty men. The study results identified 
several factors impacting retention of women and the entire workforce. 
Based on recommendations from the study we quickly implemented several 
workforce initiatives to improve equitable outcomes for women. We 
updated our parental leave policy allowing for up to 114 days of leave 
(up to 30 days of prenatal leave, 42 days of medical convalescent 
leave, and 42 days of primary caregiver leave) to be granted to the 
primary caregiver, and created a program where Coast Guard Reservists 
can be called to backfill active-duty members when they go on prenatal, 
maternity convalescent, and primary caregiver leave. This program 
sustains unit readiness while best supporting our members with parental 
responsibilities. We improved uniform and grooming standards, capturing 
changes recommended from women serving in front-line operations.
    We adjusted assignment policies, to facilitate the co-location of 
dual military families, and modernized the body composition program 
resulting in a new compliance method.
    While these changes represent positive steps forward, front-line 
leadership must focus on building organizational climates where 
everyone can contribute the full power of their diverse backgrounds, 
experiences, and thoughts. Organizational climates must be free from 
conduct that unreasonably interferes with an individual's work 
performance. We must eliminate incidents of harassment, bullying, and 
retaliation that create intimidating, offensive, or hostile work 
environments within the Coast Guard. These behaviors erode mission 
readiness, are in direct violation of our core values of Honor, 
Respect, and Devotion to Duty and are simply not tolerated in the Coast 
Guard.
    The Coast Guard is committed to responding to and investigating all 
allegations of harassment, sexual harassment, bullying, and 
retaliation, while holding offenders accountable. Our updated Anti-
Harassment and Hate Incident (AHHI) policies ensure Commanders address 
and respond to every allegation, and we continue to take decisive 
action to improve Service-wide accountability. We implemented all 16 
recommendations from the December 2018 DHS Inspector General Report of 
Investigation, the December 2019 ``Righting the Ship'' majority staff 
report, and the June 2020 DHS Inspector General Audit. This includes 
development of robust guidance for our field commanders, investigators, 
and legal advisors. Updated guidance demands refinement of 
investigative procedures and enforcement of process time lines and 
enhancing complaint adjudication. To maintain the highest levels of 
professionalism, we mandated additional training and enhanced selection 
criteria of investigators. To ensure fairness and transparency of 
process, we instituted policy that requires investigators be selected 
from outside the chain of command. All final actions are reviewed and 
approved by the next level in the chain of command to ensure 
accountability.
    Two years ago in June 2019, we published The Coast Guard's 
Strategic Vision for the Coast Guard Academy. This document established 
clear direction to the Superintendent to foster an inclusive 
environment that enables students and faculty to reach their greatest 
potential. As part of the strategic plan, within our Mission Support 
enterprise, we created a DCMS-Deputy for Personnel Readiness (DPR) 
position. DCMS-DPR is a two-star admiral responsible for oversight of 
the Service's Human Resource directorate, our Force Readiness Command, 
and the Coast Guard Academy. In addition to the creation of DCMS-DPR, a 
Coast Guard Academy Program Manager position was created within the 
Mission Support organization at Coast Guard Headquarters. The purpose 
of these additional positions is to improve general oversight at the 
Coast Guard Academy and to carry out the published strategic vision.
    The Academy prioritized the caring, ethical, and inclusive 
treatment of its people--as well as diversification of the faculty, 
staff, and cadet corps--central elements of the Academy Strategic Plan. 
These efforts were recognized by external entities including the 
National College Athletic Association (NCAA), which recognized the 
Academy as an Honorable Mention recipient of the NCAA Minority 
Opportunities Athletics Association Diversity and Inclusion award. The 
Academy is one of 3 honorable mention awardees and the only Division 
III institution recognized. Additionally, the American Society for 
Engineering Education (ASEE) recognized the Academy with the Bronze 
Award for Diversity and Inclusion--the highest level of recognition 
provided by ASEE that was presented to only 21 Colleges and 
Universities across the Nation.
    These accolades speak to the Coast Guard Academy's efforts to 
create an inclusive learning and training environment that prepares 
cadets to become Service Ready Ensigns and Leaders of Character. Their 
important work continues as they strive for excellence while on-
boarding each new class.
    In 2020, we launched another study with the RAND Corporation to 
identify barriers in recruitment and retention, and underrepresentation 
of women and members of racial and ethnic minority groups in the 
active-duty Coast Guard. The Underrepresented Minorities study will be 
delivered later this summer. At our request, RAND provided preliminary 
survey findings, and we have already begun initial efforts to implement 
policy changes as a result of RAND's interim findings. Placement of new 
officer recruiters in Washington, DC, Hampton Roads, Atlanta, Miami, 
and New Orleans was inspired by these preliminary findings. Also, the 
study indicated access to mentors is important. In response, the Office 
of Leadership launched a new ``mobile-enabled'' mentoring program to 
better connect mentors with mentees through traditional ``one-on-one'' 
mentoring. The ``app-based'' mentoring program allows flexibility to 
foster inclusion and connection within and across our many Coast Guard 
communities. We look forward to sharing the results of this RAND 
Underrepresented Minorities study with the committee, and implementing 
initiatives to ensure members from underrepresented minority groups can 
thrive in the United States Coast Guard.
    In collaboration with the Coast Guard, the Department of Homeland 
Security recently entered into a contract with the National Academy of 
Public Administration to conduct a study on the cultural competence of 
the U.S. Coast Guard Academy, as required by Section 8272 of the Elijah 
E. Cummings Coast Guard Authorization Act of 2020. We look forward to 
the insight and recommendations from this study in order to advance the 
diversity, equity, and inclusion acumen at our Service Academy.
                                closing
    The Coast Guard is hard at work to create lasting change and is 
committed to working closely with Congressional Members to enhance the 
inclusiveness of the Service. The ability to recruit, train, and retain 
a diverse workforce is critical to Coast Guard readiness, and I seek 
your support and commitment to attract a talented and diverse 
workforce, ready to protect and defend America's maritime domain. Being 
the world's most inclusive Coast Guard is what I call or term 
``Commander's Business'' and a strategic priority for our Service 
capturing the full attention of our leadership team.
    Thank you again for the opportunity to testify today, and I look 
forward to your questions.

    Chairman Thompson. I thank the witness for his testimony.
    I remind each Member that he or she will have 5 minutes to 
question the witness.
    I now recognize myself for questions.
    Admiral Schultz, I discussed in my opening statement recent 
instances of substantiated retaliation, instances of race-based 
harassment, and reports of sexual assault and harassment. Each 
involved a victim who is or was a member of the Coast Guard 
with a life and career that have been permanently affected by 
their experience.
    I recognize that these issues have existed within the Coast 
Guard for a long time and many of these cases occurred before 
you took the helm as Commandant. That said, you are ultimately 
in charge of the Coast Guard, and when you speak, you speak for 
the service.
    One common frustration we have heard from whistleblowers is 
that the Coast Guard fails to adequately acknowledge that they 
have been wronged. They may have their performance ratings 
restored or the Coast Guard may improve policies as a result of 
their case, but they never receive anything they can point to 
to confirm that, yes, they were harmed by something that never 
should have been allowed to happen.
    It would be incredibly meaningful for those who have been 
victimized while serving in the Coast Guard to receive an 
apology from you on behalf of the service. So I ask you, will 
you here, now, apologize on behalf of the Coast Guard to anyone 
who has suffered retaliation, assault, harassment, or bullying 
or otherwise been victimized while serving in the Coast Guard?
    Admiral Schultz. Chairman, thank you for the question.
    So, any time anyone has had a negative experience or being 
wronged in the Coast Guard, I obviously, as the service chief, 
am concerned. We continually try to focus on corrective 
actions. When we have wronged somebody, clearly, I would offer 
my apology to that individual.
    What we try to do is--each individual case is complex. We 
investigate them. With the committee's assistance and keen 
oversight, we have considerably increased the fidelity and, 
really, the professionalism of our investigatory actions. As a 
senior service member, the service chief in this case, we want 
to bring accountability to all matters. We want to make sure we 
have, you know, investigative materials in front of us that 
allow us to reach the right decisions.
    But, to your point, sir, any member that feels wronged, 
that was wronged, yes, obviously, sir, I take that incredibly 
seriously and am focused and I hope the testimony and our 
conversation this morning will point to the efforts we are 
doing to try to right those past, you know, mistakes and put us 
on a trajectory to be as forward-leaning and as inclusive as 
absolutely possible.
    Chairman Thompson. Well, thank you. I am sure those victims 
who have been documented to have been wronged accept your 
apology. That is what you do when you are at the top.
    Yesterday, the Secretary of Defense, Lloyd Austin, 
announced that he is recommending to the President a change in 
the military justice system to remove the prosecution of sexual 
assaults, domestic violence, and other special victims crimes 
from the military chain of command and, instead, have 
independent authorities decide whether to prosecute.
    Do you agree with Secretary Austin's recommendation?
    Admiral Schultz. Mr. Chairman, clearly, the Coast Guard, as 
an armed force, have been and will continue to be in that 
discussion space. I have been tracking with keen interest the 
independent review commission and their findings. I saw 
Secretary Austin's remarks yesterday. Clearly, as a collective 
set of armed services, armed forces, we have not gotten this 
right, and there is room for improvement.
    I do believe the other service chiefs have stated recent, 
you know, like opinions that commanders absolutely have to be 
part of the solution. You know, referring things to an outside 
body, there is potential benefit there. I think keeping the 
commander in the decision-making process, though, is absolutely 
essential, because this is commanders' business: (A), we want 
to prevent sexual assaults, but when they occur, we want them 
referred to the appropriate body, whether that is a court 
martial proceeding or otherwise.
    What I do have a concern about is, when we refer those 
outside, if that was the trajection--or the direction, 
trajectory it goes, if they chose not to do that, then does it 
come back in? Exactly how would a commander process it at that 
point?
    But I am absolutely tracking the SecDef. We will follow 
suit with the other armed services. I am open to change, sir, 
for the very reason that we have not gotten this completely 
right, as reflected in the statistics you cited in your opening 
statement.
    Chairman Thompson. Thank you very much. I look forward to 
working with you.
    I also look forward to working with you on the Coast Guard 
Academy Improvement Act, which I referred to as the Elijah E. 
Cummings Coast Guard Authorization Act of 2020. There are some 
things I think we can work on on that.
    I now recognize the Ranking Member of the full committee, 
the gentleman from New York, Mr. Katko, for questions.
    Mr. Katko. Thank you, Mr. Chairman.
    Thank you again, Admiral, for being here.
    I am very confident, and I encourage my colleagues on both 
sides of the aisle to probe specific issues of misconduct that 
have not been handled properly by the Coast Guard, but I do 
want to take a moment to kind-of reinforce a few things that 
the Admiral said that he has been doing since he has been at 
the helm.
    They are reflected in a document that I have before me. It 
is called ``The 26th Commandant's Actions to Create an 
Inclusive Coast Guard.'' These actions include, in summary, 
creating a climate free of harassment, leadership on key 
issues, improving policies that disproportionately impact 
female members, partnering with RAND to find ways to 
continually improve the service, and a strong stance on 
extremism and divisive issues.
    These are the things the Admiral has implemented since he 
came into service. There have been other things reflected that 
have been implemented since before. It is not perfect. We have 
a long way to go. But I do want to note that there are things 
being done.
    Mr. Chairman, I ask that I can incorporate this document 
into the record.
    Chairman Thompson. Without objection, so ordered.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Katko. Thank you, sir.
    Since I am confident that other people are going to deal 
with some of the other issues, I wanted to take this moment to 
talk about something I think is critically important, and that 
is the Arctic.
    Recently, Russia assumed the rotating presidency of the 
Arctic Council. As we know, there are more waters being created 
with the ice melt going on. It grants them additional influence 
on efforts to address strategic challenges in the Arctic.
    What role will the polar security cutters of the Coast 
Guard play in countering strategic challenges in the Arctic, 
Admiral?
    Admiral Schultz. Ranking Member Katko, thank you for your 
question.
    Sir, I believe the Coast Guard's role in the Arctic is 
irrefutable. We are a lead Federal agency. We bring the surface 
capabilities to the high-latitude regions, both the Arctic and 
Antarctic, on a persistent recurring basis.
    What we don't have is much presence. I have coined the 
phrase that ``presence equals influence.'' Right now, we are 
operating a 45-year-old icebreaker called the Polar Star, our 
sole heavy icebreaker in the U.S. inventory, and a medium 
breaker, the Healy, that was built in 2000, not quite as 
capable but allows us to do science and research work.
    Sir, what we need to do is build out this fleet of polar 
security cutters. You referenced those. With the support of 
Congress, the second cutter was funded through the 2001 
Consolidated Appropriations Act. That is a program of record, 3 
ships. There is really a broader conversation to be had, 
probably, about more polar security cutters or maybe some 
medium icebreakers, what we might term an Arctic security 
cutter future ship.
    But we absolutely need to be up in the Arctic and down in 
the Antarctic on a more persistent basis than we are today, 
because great-power competition is alive and well there. China 
has operated off the western Arctic, the Alaska Arctic, for 
probably 6 of the last 9, 12 years. Russia is building out an 
increasingly large fleet of icebreakers and intends to use the 
Northern Sea Route essentially as a toll route. There will be 
freedom-of-navigation issues in the future, and we will have 
the organic domestic capability to press into that and project 
our sovereign interests, sir.
    Mr. Katko. Thank you, sir.
    Just to follow up on that, what efforts are you making with 
the Coast Guard to forward-deploy assets and resources in 
coordination with our allies and partners in the Arctic to 
ensure our interests are protected?
    Admiral Schultz. Well, Ranking Member, each summer for many 
years, now we have done Arctic Shield from about June 1 until 
into the fall. That is up in the western Arctic, again, 
northern Alaska. We will continue to do that. We forward-deploy 
some MH-65 Jayhawk helicopters, marine inspectors. We 
communicate and establish relationships with the local 
communities, the indigenous populations. Obviously, we have to 
move and work at the pace of the locals and their interests.
    We are taking the Healy, the medium breaker, and we are 
doing a pretty historic transit. We are going to do some 
science work in the Western Pacific, about 30 days. Then we 
will do a Northwest Passage transit, so up over the north coast 
of Canada. We will partner with our Canadian allies there. We 
will have researchers, we will have some British polar sailors 
on board, and other groups. We will pop out in the Atlantic, 
probably make a port call over in Greenland, and we will 
demonstrate that the Coast Guard is in fact an Atlantic-based 
Arctic Coast Guard as well, bring the ship down through the 
Panama Canal, back to Seattle.
    We have had medium-endurance cutters, in the recent months, 
over in Greenland exercising with the Dutch, with the French. 
They are very eager. We have put a new Coast Guard attache in 
Copenhagen to thicken the lines.
    When you think about the 8 Arctic nations, Ranking Member, 
you know, 3--Canada, United States, and Russia--are Pacific-
based; the other 5 are solely Atlantic-based. So we are trying 
to make sure we are touching the entire Arctic Forum/Arctic 
Council membership.
    Mr. Katko. Thank you.
    Mr. Chairman, how much time do I--I don't believe I have 
many time left, so I will yield back.
    Chairman Thompson. The gentleman yields back.
    The Chair recognizes the gentlelady from Texas for 5 
minutes, Ms. Jackson Lee.
    Ms. Jackson Lee. Good morning. Thank you so very much, Mr. 
Chairman. This is a vitally important hearing, and I am 
delighted to be part of it this morning.
    Admiral, welcome again. Congratulations to you. Thank you 
for the work that the Coast Guard has done.
    But let me indicate that I am enormously disturbed, 
enormously disturbed, by the report and the, seemingly, 
atmosphere in the Coast Guard. I want to thank Chairman 
Thompson for very well-documented issues dealing with 
harassment, bullying, sexual harassment in particular, and the 
numbers of those Coast Guard officers who are women who are 
experiencing sexual harassment. When you begin with sexual 
harassment, you are on the edge of rape and other sexual 
assault.
    This morning, the Vanessa Guillen legislation was again 
reintroduced. I am an original co-sponsor of that legislation, 
have been. I think you are aware of that. There is the idea 
that there be a separate command, a separate process of 
investigation, under the Department of Defense, for these 
particular charges, to create an atmosphere where we have a 
fully competent military team, if you will. That should go for 
the Coast Guard.
    So my first question is, would you fall under that regimen 
or would you be willing to commit to an independent 
investigatory structure under the Coast Guard to take these 
cases?
    Women are intimidated. Vanessa Guillen is my neighbor, a 
neighboring district. Her death was unspeakable. Young women 
who wanted to be in the service all of their life.
    So let me just ask that question. I will just put these 
other two before you, and you can briefly answer the other 
ones.
    I would be interested in your funding and level of 
preparedness for drug interdiction and what work you are doing 
there; and your preparing and funding for hurricane season. You 
have done great jobs for us in the Southern Region and the Gulf 
Region with rescues. I would be interested in whether you are 
capable and have the staffing for that, which is what we are 
expecting in the near future.
    So, if you could answer those questions, I would appreciate 
it.
    Thank you, Mr. Chairman.
    Thank you, Admiral.
    Admiral Schultz. Good morning, Congresswoman Jackson Lee. 
It is good to see you, ma'am, as well. I know we have worked 
very closely in the past on the streets of Houston and other 
things.
    You know, ma'am, on the Fort Hood situation, the Sergeant 
Guillen investigation, we commissioned a task force in-house to 
look at that. We actually have 49 action items that we derived 
from studying that investigation to bring those findings into 
the Coast Guard, to make sure we are addressing them. They are 
near-term and short-term, and right now we have a group that is 
arraying those on how we are going to get after those. That is 
inside the lifeline, learning from outside the lifeline 
activity.
    So I am not 100 percent sure I am clear on your question. 
If your question was outside investigative body related to the 
question about the SecDef and where they are going with Sexual 
Assault Prevention Response potentially----
    Ms. Jackson Lee. Yes. Would you set that up?
    Admiral Schultz. Yes. I indicated, ma'am, I am open to 
change there. I think I reaffirmed already my opinion that I do 
believe the commander needs to stay in that. So I think I would 
suggest that outside stuff be targeted specifically, if it is 
going to go down that path, just to sexual-assault-type 
matters, because commanders' roles are so important in both 
prevention and response and handling of these from an 
accountability standpoint.
    To your other questions, ma'am, on our preparedness, we are 
in hurricane season. We have seen Claudette, the third, you 
know, named storm, pass through the South, through your part of 
the country and really through New Orleans area and off over 
the Atlantic.
    We are tooled up and ready to go. It has been a uniquely 
challenging world, as we all know, for all Americans, for all 
global members of society, but your Coast Guard has been as 
busy as ever. I think we are as postured as ever to be 
responsive.
    Last year was the busiest Atlantic Basin hurricane season 
on record, with more than 30 named storms. I think the 
predictions this year [inaudible] predictions.
    Then, last, drug interdiction, ma'am, we remain committed. 
We commit 4 ships, multiple helicopters down there. We exceed 
that; we commit about 175 percent of our stated commitment to 
the Department of Defense. That continues to command my 
attention. On average, we remove about 440,000 pounds of 
illicit narcotics destined to American streets, ma'am, every 
year.
    Ms. Jackson Lee. You have the funding? I also hope that you 
are very alert as it relates to your cyber space, making sure 
you have the expertise and also the firewalls to protect your 
cyber space?
    Admiral Schultz. Congresswoman, we are building out our 
cyber work force. We recently just--fully operational 
capability for the first Cyber Protection Team. There is 
funding--thank you to the committee and the administration--for 
a second Cyber Protection Team, a cyber mission team.
    That is an increasingly complicated, challenging landscape. 
Knowing how critically important the maritime transportation 
system is to the Nation's economy, we have got to own that. I 
have told Secretary Mayorkas that, you know, we own the 
maritime piece of all the cyber infrastructure, and we are 
working diligently, ma'am, to build out our capabilities. That 
is a work in progress, and it commands my top attention as 
well.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentleman from Louisiana for 5 
minutes, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    Thank you, Admiral Schultz, for being here today and to the 
Chairman and Ranking Member for calling this hearing today.
    As an Army veteran myself, I understand the importance of 
diversity of background and skills in the military and how it 
benefits our Nation's National defense mission. Diversity is 
indeed one of our Nation's greatest strengths. Yet we must 
never forget that we are one in the eyes of God, created in his 
image.
    There are more pressing issues this committee must address, 
like the humanitarian crisis at the border, the criminal crisis 
at the border, the Constitutional crisis that the border 
situation is creating, cartel and drug-smuggling crimes, human 
trafficking, foreign cybersecurity attacks, emergency 
preparedness, much more.
    While many may feel a bit tired, need to take a break from 
these serious discussions to focus on issues more of a 
political nature, I think we must take a deep look at the 
priorities and efforts of this committee. The safety of our 
Nation is at stake if immediate threats that we face take a 
back seat to non-life-threatening topics. This committee is not 
focused on homeland security; it is focused on identity 
politics that serve as an evasion of responsibility.
    One concern many of my constituents in the State of 
Louisiana have that has not been addressed by this committee or 
any other committee in the House of Representatives is the 
Seacor incident that occurred on April 13 of this year.
    During this event, the Coast Guard carried out search-and-
rescue operations after a severe weather event caused a 129-
foot commercial lift boat, owned by the Seacor Marine, to 
capsize 8 miles off the coast of Louisiana. This incident 
resulted in 6 confirmed deaths, with 7 crew members still 
unaccounted for, lost at sea.
    We must address legitimate questions regarding the Coast 
Guard's vessel response plans and concerns of recovery 
capabilities, as well as the frequency and timeliness of 
updates for the crew members' families in the event of an 
incident.
    I am not interested in blame. I am interested in what we 
can do as a Nation to promote marine safety and emergency 
response by Federal assets like the Coast Guard.
    I penned a letter, signed by the entire Louisiana 
delegation, sent the letter to this committee, requesting a 
hearing on the Coast Guard's disaster response plans, and we 
have not heard a word from leadership.
    Mr. Chairman, I would ask unanimous consent to present it 
to the record, a copy of that letter.
    Chairman Thompson. Without objection, so ordered.
    [The information follows:]
                 Letter Submitted by Hon. Clay Higgins
                                      May 13, 2021.
Speaker Nancy Pelosi,
Capitol H232, Washington, DC 20004.
Leader Chuck Schumer,
Capitol S221, Washington, DC 20004.
Leader Mitch McConnell,
Capitol S230, Washington, DC 20004.
Leader Kevin McCarthy,
Capitol H204, Washington, DC 20004.
    Speaker Pelosi, Leader Schumer, Leader McConnell, and Leader 
McCarthy: We urge the committees of jurisdiction in the House of 
Representatives and U.S. Senate hold oversight hearings to examine the 
response and recovery efforts related to the recent SEACOR Power 
tragedy in the Federal waters of the U.S. Gulf of Mexico.
    During a severe weather event on April 13, 2021, a 129-foot 
commercial liftboat owned by SEACOR Marine (SEACOR) capsized eight 
miles off the coast of Port Fourchon, LA. The United States Coast Guard 
responded to the event and carried out search and rescue operations 
from April 13 through April 19, 2021. Tragically, the incident resulted 
in 6 deaths with 7 crewmembers still unaccounted for.
    This tragedy has exposed gaps in existing vessel response plans and 
has raised concerns regarding the recovery efforts, the frequency and 
timeliness of updates for the crewmembers' families, as well as the 
time it has taken to remove the vessel from the water. As of the 
writing of this letter, the vessel still remains capsized in the 
water--31 days after the incident. This is inexcusable and has resulted 
in further tragedy for the families who are still awaiting final news 
of their missing loved ones.
    It is imperative that Congress exercise its oversight authority and 
take steps to review actions taken to ensure policy gaps are fixed and 
any lessons learned from the tragedy result in more efficient 
procedures and a higher degree of marine safety in the future.
    We ask respectfully that the committees of jurisdiction conduct 
necessary oversight hearings on this tragedy and opportunities to 
improve marine safety procedures overall. Congress has an obligation to 
take a deeper look into emergency response measures to assist and 
prevent such tragedies in the future. Thank you for your consideration 
of this request.
            Respectfully,
                                         Bill Cassidy, M.D.
                                             United States Senator.
                                              John Kennedy,
                                             United States Senator.
                                              Clay Higgins,
                                         United States Congressman.
                                             Steve Scalise,
                                         United States Congressman.
                                             Garret Graves,
                                         United States Congressman.
                                              Mike Johnson,
                                         United States Congressman.
                                              Julia Letlow,
                                       United States Congresswoman.

    Mr. Higgins. Thank you, Mr. Chairman.
    The Seacor capsizing was a devastating event. Lives were 
lost. This is the type of issue that the Homeland Security 
Committee should address.
    Admiral Schultz, God bless you, sir. I know you are here 
today to discuss a specific topic, so I will not put you on the 
spot regarding Seacor, and I will only leave you with one 
request.
    Can you commit today to lead a briefing for me, for 
interested Members of this committee, and for the Louisiana 
delegation regarding lessons learned from the Seacor Power 
tragedy and how the Coast Guard and Congress could work 
together to ensure the likelihood of such a tragedy is reduced 
in the future? Can you make that commitment to me today, good 
sir?
    Admiral Schultz. Congressman Higgins, good morning, sir. I 
echo your sentiments about the tragic confirmed loss of 6 and 
still 7 missing. Seacor Power was a very difficult, complex 
case. You have my commitment, sir, for a briefing, absolutely.
    You know, we are working with the National Transportation 
Safety Board, NTSB, regarding investigatory occurrences for 
that situation. We need to understand what transpired. We are 
working in a unified command environment right now, as they try 
to recover and right that vessel. Then that will factor into 
our understanding of exactly what transpired and how we learn 
from that.
    You know, first and foremost, as the Nation's lead Federal 
agency for maritime safety, security, and environmental 
stewardship, we absolutely have to understand that and we have 
to preclude that from happening again.
    Sir, with respect to the families, we worked very closely 
with NTSB in terms of, you know, kind-of, timing of their 
arrival and not losing sight of the fact that there were 
families involved with missing loved ones. They still have 
unaccounted-for missing loved ones.
    Sir, I know--and I will take the hit on this--that, in the 
social media thing, our public affairs folks put out some 
tweets that maybe seemed impersonal. We have looked at that and 
talked to our folks about that. When there are people involved, 
you know, some of these social media platforms that limit 
tweets to so many characters don't capture the emotions of all 
the folks that are suffering loss and hopeful that they may 
find, in that case, probably not a surviving body but just a 
body to have, you know, an appropriate funeral.
    So, sir, I appreciate the emotion involved in this. You 
have my commitment to learn from this through the investigatory 
process. We would be absolutely committed to coming and 
briefing your staff, or if that is at a hearing, whatever route 
that is deemed appropriate by the committee, sir, we want to 
inform into that and try to preclude such tragic occurrences 
from the future.
    Mr. Higgins. Thank you, Admiral, for that commitment.
    Chairman Thompson. The gentleman's time has----
    Mr. Higgins. Let me clarify that I have received many 
briefings from the Coast Guard headquarters in New Orleans----
    Chairman Thompson. The gentleman's time has expired.
    Mr. Higgins. I thank you for your service.
    Chairman Thompson. The Chair now recognizes the gentleman 
from New Jersey----
    Mr. Higgins. Thank you, Mr. Chairman.
    Chairman Thompson [continuing]. Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman, for holding this timely 
hearing on a very, very important topic, and to the Ranking 
Member as well.
    Admiral Schultz, it is clear that much remains to be done 
to increase diversity in the Coast Guard ranks. Recruitment is 
a large part of that. In fact, there is a Coast Guard 
recruitment office in my district in Newark, New Jersey.
    So I am interested to know what the Coast Guard is doing to 
recruit youths from the inner city. How is the Coast Guard 
supporting these youth once in the service so that you can 
actually retain them and encourage them to move up through the 
ranks and not just get them in the door?
    Admiral Schultz. Congressman Payne, good to see you, sir. 
Thank you for the question.
    I think the latter part of your question just warrants a 
little bit of attention. You are absolutely right. We don't 
want to just recruit folks to the Coast Guard; we want to bring 
them in and retain them in the Coast Guard. You know, for every 
coastguardsman we retain, you know, beyond their 4-year initial 
commitment, track up maybe potentially up to 20 years and 
beyond, that is a huge win. It takes us multiple recruits to 
get that.
    We have the highest retention of any of the Armed Forces, 
and that still is a challenge. I am working to find 4,000 
Americans that want to enlist in the Coast Guard on an annual 
basis. We have been challenged to meet that goal year-in, year-
out. With COVID this past year, we will probably get to 3,200, 
3,300. I will probably spike the football, in a sports analogy, 
to say that would be very good in the difficulties posed by 
this last year's set of circumstances confronting the Nation.
    But when you look into the recruiting environment, about 28 
percent of Americans are eligible to serve in the Armed Forces. 
About 10 percent of that 28 percent have a propensity to serve. 
We are competing with the Department of Defense, DOD, services 
that are recruiting 1,000-plus young men and women on a weekly 
basis. I am looking for 4,000 on an annual basis.
    They are able to throw larger recruiting bonuses. I believe 
the Army offers a young man or woman $30,000 to commit to show 
up at their training facility in the first 30 days. Where I am 
forced to use bonuses for recruiting is somewhere between 
$2,000 and $7,000, and that is usually in the leanest, bleakest 
part of the year.
    Sir, on our recruiting offices, back in sequestration 
years, we took about a 50-percent reduction to our recruiting 
offices. So we are trying to go back to some targeted 
locations. We worked with Chairman Thompson for one in 
Mississippi and got that close to right. The Chairman informed 
me that we didn't get it exactly in the right place, but I am 
aware of that, and we are, you know, cognizant to make sure we 
get that 100 percent right next time. We are enabling our 
recruitings with ability.
    So I think it is a work in progress, sir, but you are 
absolutely correct.
    Mr. Payne. OK. Thank you.
    Admiral Schultz, what can you tell the committee about the 
Coast Guard's Second Chance Program? How many times in the last 
5 years has the Coast Guard utilized the program? Can you 
provide this committee with the demographic breakdown of those 
who have been approved for participation and the circumstances 
of their participation?
    Admiral Schultz. Well, Congressman Payne, we do have a 
Second Chance Program. That is, you know--the purpose is to 
retain good, solid, first-term performers that have the 
potential, you know, maybe had a youthful indiscretion but can 
move forward on that.
    There are some, you know, issues that are not youthful 
indiscretions--drug use, alcohol use involving a motor vehicle, 
other things. There are some bright-line things that do not 
allow us to do that.
    I do not have the data in front of me about how many times 
we have used the Second Chance Program nor the demographics 
within those cases. I will be sure to respond for the record to 
that here, if I could, after the fact or to you personally, 
whichever your preference, sir.
    Mr. Payne. That would be good.
    Admiral Schultz. I am also looking at the Second Chance 
Program, sir. You know, it is pretty rigorous with certain 
things, with alcohol use and other things like that. I have 
asked my team, in recent months here, to explore that and say, 
do we have this right, given some of the challenges in the 
Nation and the difficulty-to-recruit environment?
    But, sir, we do have it. We do use it. We will give you the 
data you asked for here at a follow-on opportunity.
    Mr. Payne. OK.
    I see my time is slowly dwindling. So, with that, Mr. 
Chairman, I will yield back the balance of my time.
    Chairman Thompson. Thank you.
    The gentleman yields back.
    The Chair recognizes the gentleman from Mississippi for 5 
minutes, Mr. Guest.
    Mr. Guest. Thank you, Mr. Chairman.
    Admiral, I want to first tell you how much I appreciate the 
work of your airmen and seamen, the things that they are doing. 
I particularly want to talk a few moments about your drug 
interdiction and some of the successes that you have had over 
the last few months.
    A Maritime Executive article referred to the cutter Mohawk 
returning to Key West after having seized 4,000 pounds of 
cocaine having a street value of nearly $70 million. That same 
article talks about the Campbell returning home on February 8 
to report to her port in Maine, where she had interdicted 
11,600 pounds of cocaine worth $215 million. The Harriet Lane 
had returned also, offloading $200-plus million in seized 
cocaine. A week early, the Gabrielle Giffords returned to port 
with $200 million of cocaine captured in the Eastern Pacific.
    Some articles that I found in the Coast Guard News: On 
March 10, an article said that the cutter Bertholf returned 
home, offloading approximately 7,500 pounds of seized cocaine 
and marijuana, an estimated street value of $126 million. On 
March 23, it says the crew of the Coast Guard cutter Munro 
offloaded approximately 8,200 seized pounds of cocaine and 
11,450 pounds of marijuana having a value of $330 million. The 
last article, from May 19 of this year, says that the Coast 
Guard cutter Active offloaded approximately 11,500 pounds of 
seized cocaine in San Diego having a street value of $220 
million.
    So just those seizures alone, those half-dozen or so major 
seizures, if my math is correct, is over $1.3 billion in 
narcotics that have been seized and interdicted by the Coast 
Guard. First, I want to thank you for that.
    I also want you to very briefly, if you will, speak on the 
important role your agency plays in interdiction and stopping 
drugs prior to them being delivered to our country.
    Admiral Schultz. Congressman Guest, thank you for the 
question, sir, and thank you for highlighting the important 
work of our extraordinary Coast Guard men and women.
    Yes, we interdict about 440,000 pounds--that is about 207, 
208 metric tons--on an annual basis, take about 600-plus 
smugglers off the water. We bring them into the criminal 
justice system. We feed the interdiction cycle. We develop 
leads, you know, if there are plea deals cut at the U.S. 
attorney's offices and in the U.S. criminal justice system, and 
that feeds the process, sir.
    We work with a wide host of international and domestic 
partners. We work closely with the DEA on developing the 
intelligence. We work closely with the National intelligence 
community. We are a named member of the National intelligence 
community.
    We do the predominance of our detection and monitoring work 
at the Department of Defense command Joint Interagency Task 
Force--South in Key West that is commanded by a Coast Guard 
two-flag officer under the SOUTHCOM Commander, four-star 
Admiral Craig Faller, a DOD combatant command.
    Sir, you know, I believe we are some of the most capable, 
talented folks in the world on this mission. It is difficult. 
The ocean is vast. If you look at the Eastern Pacific, about 85 
percent of the drugs used to come through the Eastern Pacific. 
We are seeing that split 85/15, from Pacific to Carib, changing 
a bit. It is about a 65/35 split here.
    We have had more activity. You mentioned the Gabrielle 
Giffords. That is a Navy ship. We can take Coast Guard 
authorities with a small team of 8 to 12 coastguardsmen on a 
Navy combatant and we can extend our law enforcement 
authorities.
    So we are putting what we can in terms of cutters, we are 
putting what we can in terms of Airborne Use of Force 
capability--that is the ability to shoot out engines on fast 
boats. We are augmenting, you know, our teams at sea, because 
maintaining detainees at sea while you are continuing to do 
interdiction missions is challenging work.
    It was an extraordinarily difficult year last year, sir, 
with COVID, sending a ship downrange, with somewhere from 100 
to 175 sailors, depending on the ship class, operating with N95 
masks and standing their watch doing this mission, sir.
    But I am tremendously proud. We are appreciative of the 
support. I believe it is absolutely critically important work, 
because it feeds the instability in the Central American 
quarter that feeds some of the challenges we are experiencing 
at the land borders here in the United States as well.
    Mr. Guest. Well, as a former prosecutor, I want to commend 
you and your sailors and airmen for the incredible job that you 
are doing. I think that it is vitally important to our National 
security, protecting the homeland, and making sure that we are 
interdicting those drugs before they actually reach American 
soil.
    So thank you for your hard work and the men and women that 
serve under you.
    Mr. Chairman, at this time, I yield back.
    Chairman Thompson. Thank you. The gentleman yields back.
    The Chair recognizes the gentleman from Missouri, Mr. 
Cleaver, for 5 minutes.
    Mr. Cleaver. Thank you, Mr. Chairman.
    I appreciate all the hard work that is going on as well, 
and I don't want to minimize that, Admiral. I think, you know, 
you have a very difficult job, and I don't want to make it any 
more difficult. However, you know, I used to see recruitment 
being done years and years ago, you know, all over, including 
in the urban core, there were recruitment offices. You know, 
there used to be a lot of ads on TV that would be directed 
toward trying to get, you know, an inclusive Coast Guard.
    I am wondering now, you know, are there any limitations 
that would prevent you from doing things like that or do you 
believe that what you are doing is working and sufficient?
    Admiral Schultz. Well, Mr. Cleaver, good to see you, sir. I 
think the last time I saw was at Mr. Cummings' lying in state, 
sir.
    The question is a great question, sir. You know, there is a 
fiscal, you know, monetary aspect of how much recruiting and 
advertising we do. Advertising is quite expensive, and in a $13 
billion Coast Guard budget, you know, comparing to a $760 
billion, $740 billion DOD, we do not compete in terms of 
resources and ability to advertise.
    We advertise strategically where we can. Some of our best 
advertising is when we get our Coasties out into the schools to 
meet folks through our partnership and education programs. We 
are very excited with the support of Mr. Clyburn and the Hill 
writ large. We have a new junior ROTC program. We had two 
junior ROTC programs last year, one out in Camden County, North 
Carolina, and one down in Miami, the MAST Academy, but we are 
going to Pinellas County in Florida, we are going to North 
Charleston. I think that program has the potential for very 
modest cost input to really get our brand out there.
    I mentioned about a 50 percent cut in recruiting offices 
back in the 2013 sequestration years. That was tough. What we 
are trying to do--and it is less about the physical office 
today than it is about the recruiter and the ability to go meet 
a young recruit in his or her home, maybe in their school, have 
the mobility.
    So we have had a tech revolution. We are close to giving 
the recruiters the ability to sit down on the couch with an 
iPad and seal the deal and do the paperwork. Now we have to 
bring them back to the office. The other offices of the 
services are a little bit more agile to do their investments 
earlier on that, but we are getting there, sir.
    So recruiting is a top priority for me. Our goals are to 
recruit 25 percent women, 35 percent underrepresented 
minorities. We have done actually better on the 
underrepresented minorities, met or exceeded the goals. We fell 
short about 20 percent of women when we are striving for 25 
percent. But, sir, when you are only recruiting 4,000 a year, 
moving the needle in an organization of 42,000 does not happen 
fast. There is obviously annual, you know, attrition and 
retention, sir. But we are working hard to compete.
    We do have 4 new officer recruiters targeting minority 
officer recruiting. We are sending them to Atlanta, Miami, New 
Orleans, and Norfolk, Virginia, sir. We are hopeful that may be 
the start of additional effort in that area as well, sir.
    Mr. Cleaver. Well, thank you, Admiral.
    You know, you answered the question exactly the way I would 
have wanted. I do know that it is a difficult job.
    This is not necessarily connected, but I am also interested 
in the town halls that you once did, or maybe you are 
continuing to do. I don't have any information that would 
suggest that you are still doing the town halls. If you are 
not, could you resume or give us an update on what the status 
is?
    Admiral Schultz. Yes. Congressman, I am not 100 percent 
sure I know which town halls, but we have done some town halls 
with myself and the master chief petty officer early on in our 
tenure. We haven't done as much lately. We have had some town 
halls here responsive to, you know, the social unrest, the 
perceptions of the realities of social justice in America, with 
our director of civil rights, equal opportunity office. Dr. 
Dickerson has done that and with some others. We have had 
senior leaders participate here, if that is what you are 
referring to, and the work is on-going.
    We had them at a little more persistent pace here months 
back, but, sir, we work very diligently to stay connected with 
our work force and, you know, there is a technological piece of 
how broadly we can connect through a work force of, you know, 
42,000 active, 9,000 civilians, and about 6,000 reservists, 
sir, but we do try to keep the lines of dialog open. It is only 
when we understand what is on our people's minds that we can be 
responsive to that and strive to better ourselves.
    Mr. Cleaver. Well, I appreciate the direction you are 
going, sir, and I appreciate you being here today.
    Mr. Chairman, I yield back the balance of my time.
    Chairman Thompson. The gentleman yields back.
    The Chair recognizes the gentleman from New Jersey for 5 
minutes, Mr. Van Drew.
    Mr. Van Drew. Thank you, Chairman Thompson.
    Admiral Schultz, thank you for all the good work that you 
do and where you have taken the Coast Guard. I am very 
appreciative of your work, and I look forward to hearing from 
you about how the service is working to maintain a competitive 
edge within our military.
    I would like to express my strong support. As you know, we 
have spoken many times for the training center, Cape May 
Recapitalization Project, which was included in the President's 
fiscal year 2022 budget. This $55 million barracks renovation 
projects the first of four phases which would completely 
overhaul the outdated 60-year-old facility, which does not 
provide the services with the necessary infrastructure to 
fulfill its mission, especially its new mission.
    Training Center Cape May is the sole accession point for 
the Coast Guard's enlisted work force, which consists of 
roughly 4,200 annual recruits. When the original facilities 
were built in the 1960's, only men were allowed to enlist in 
the service. The new barracks would provide equitable berthing 
and showers and rest room facilities for male and female 
recruits, which is a necessary change to help fulfill the Coast 
Guard's mission of increasing diversity and increasing equity. 
The project would also expand the capacity of the training 
center to accommodate 5,000 annual recruits, a much-needed 
increase to support a more resilient Coast Guard.
    Admiral Schultz, in your written testimony, you stated that 
the Coast Guard had made significant strides to recruit, 
retrain--sorry--recruit, retain, and advance a diverse work 
force, creating lasting and powerful change, and enhance the 
culture and climate of the service.
    How does the Training Center Cape May Recapitalization 
Project help the Coast Guard fulfill those goals?
    Admiral Schultz. Well, Congressman Van Drew, good morning 
to you, sir.
    You know, clearly, that is our flagship training command 
for enlisted members of our work force, and there is tremendous 
history there, but as you said, there is aging infrastructure. 
When you are in a competitive environment, back to my reference 
to, you know, 28 percent of Americans eligible to serve and 
some 10 percent show the propensity to serve, you know, when 
they explore the services, and these kids are bright, they are 
smart, they look on-line, it is not hard to take a look at 
Great Lakes Training Center compared to the Coast Guard 
Training Center versus the Air Force Recruit Training down in 
Texas and you see old facilities.
    So I think the ability for us to update our training 
facilities, the ability to create more equitable physical 
facilities for our women recruits is absolutely an essential 
part of this recruit and retain conversation we are having, 
sir. I am very excited that we pushed hard through the 
Department and the administration to get phase 1, $55 million 
in there for the first barracks. The unfunded priority list 
that I submitted through the Department of OMB to Capitol Hill 
has phase 2, which is the second barracks up there.
    So I am committed, sir, to developing a capital investment 
plan for the training center, just like we have for our 
academy, to get after those things where our flagship training 
institutions are not sort-of forgotten, because they are 
absolutely part of this conversation about the world's best 
Coast Guard needs to be the most inclusive Coast Guard. That is 
having places that attract America's best and brightest that 
want to be on our team and stay on our team.
    Mr. Van Drew. Thank you, Admiral.
    I can appreciate how the service is looking to draw in more 
recruits, and I support that. I would like to see the current 
high standards of the service remain in place, and you and I 
spoke about that when we spoke privately.
    What assurances can you give us all that the Coast Guard 
will not compromise quality recruits with the implementation of 
its diversity and inclusion plan that will get the best of 
everything?
    Admiral Schultz. Congressman Van Drew, we are a standards-
based organization, military service. We are not adjusting any 
of our standards. We are just working hard to go out and find 
those men and women from diverse backgrounds, cultural 
demographics that want to be on our team and, obviously, part 
of our standards. But we are trying to be an innovative 
organization. We are trying to realize, you know, things--you 
know, a young Black woman that goes to recruit training that 
spends a lot of time in the pool there and has different hair 
than her White counterpart, has concerns to that. We don't want 
that to be a disincentive, so one of those things where we make 
sure they have the right types of shampoos, the right types of 
things where we can recognize there are differences, there are 
cultural differences, there are gender differences. We are 
trying to be sensitive.
    It has nothing to do with standards, sir. We remain 
standards-based, and what we are trying to do is be informed, 
though. You know, different folks, we have found some of the 
Greek fraternities for similar Black members and then brands, 
and we had very limiting policies about who could enter the 
service with a brand, a skin brand.
    We changed some of those policies because that was 
precluding very capable, motivated men and women who wanted to 
serve their Nation from entering our service, and we have 
revisited many of those things. I think that has all been 
helpful as we try to be a Coast Guard more reflective of the 
Nation we are privileged to serve.
    Mr. Van Drew. Well, Admiral, I agree with you. I thank you 
for the good work and your level of excellence continually and, 
really, what you have set up for the future. I think the Coast 
Guard has great--even greater potential under your leadership. 
So thank you.
    Chairman Thompson. The gentleman's time has expired.
    Mr. Van Drew. I yield back.
    Chairman Thompson. Thank you very much.
    Admiral, let me be clear, in all the discussions that you 
and I have had, I am sure you have had with any Members of this 
committee, about diversity and equity, has there ever been a 
discussion about lowering the standards of admission to the 
Coast Guard?
    Admiral Schultz. Chairman, absolutely not. We have never 
had that discussion, sir. We, I think, share a commitment that 
we want to go and find those men and women with a propensity to 
serve and bring them in the service and put them on a 
trajectory to be successful, male, female, Black, White, 
Hispanic, Asian American, Pacific Islander. I want a Coast 
Guard where every member feels like their shipmates are behind 
them and pushing them to the next rung on the ladder. There is 
tremendous opportunity for success, sir, and we will remain 
standards-based. That has never been part of the conversation, 
Chairman.
    Chairman Thompson. Absolutely. Thank you very much.
    The Chair recognizes the gentlelady from New York, Ms. 
Clarke, for 5 minutes.
    Ms. Clarke. I thank you very much, Mr. Chairman, for 
holding this hearing today. I thank you, Admiral, for your 
forthcoming with your answers to our questions today.
    I want to start by asking whether preventing harassment, 
bullying, assault, and retaliation is not just a matter of 
developing appropriate policies but developing a culture that 
emphasizes accountability and justice. What have you done as 
Commandant to ensure perpetrators receive appropriate 
discipline? Have you as a Commandant prevented perpetrators and 
those who condone their behavior from being protected and 
advanced for promotions or career promotions or career-
enhancing assignments? What do you believe is your role in 
doing so?
    Admiral Schultz. Well, Congressman Clarke, good to see you, 
ma'am. Good morning.
    Yes, absolutely, as the service chief with the 
responsibility to man, train, and equip the United States Coast 
Guard's work force, it is absolutely my responsibility. The 
buck stops with me. What we have tried to do in terms of the 
Anti-Harassment and Anti-Hate Incident Policy things is policy 
is part of that. We looked into that and we recognized where we 
were and where we needed to change, and we have had some cases 
that have demonstrated that with some rigorous oversight from 
the DHS IG and from the committee.
    As mentioned earlier, we created 39 initiatives to tackle 
16 recommendations, 7 recommendations committee. We have 
actioned all those. Accountability is woven through all that. 
You know, the standards-based organization, as I referenced 
earlier in some of the other questions in terms of lowering 
bars, the standards-based organization has to do and is 
premised on accountability. We have the Uniform Code of 
Military Justice from a disciplinary standpoint. We have 
administrative tools at our discretion to use, and we 
absolutely, ma'am, will try to create a perception, a reality 
that there is accountability when folks do things wrong. Have 
we always gotten that right? As I said in my opening statement, 
no.
    Ms. Clarke. Well, let me ask, do you believe that there is 
a culture, especially for those who have risen through the 
ranks and have the power to hold others accountable, of 
avoiding saying anything negative about the Coast Guard at the 
risk of facing professional consequence?
    Admiral Schultz. Do I believe there is a pervasive culture, 
ma'am? No. Do I believe some will hold that perception? 
Probably so. Is their perception their reality? It may be so. 
My goal is to create a culture that doesn't tolerate that, a 
culture where folks are not being treated fairly, 
appropriately, and that is brought forward. It is a culture of 
intrusive leadership where leaders don't sort-of wait for 
problems to go to them, but they are out and about amongst 
their people, spending time with their folks, having the 
conversations that would reveal those problems, and then we can 
act on that, ma'am. It is absolutely an intrusive environment 
that I am driving toward.
    Ms. Clarke. Wonderful.
    So how would you say you have done as Commandant to promote 
a culture of accountability in which reporting misconduct is 
not just tolerated but is encouraged?
    Admiral Schultz. Well, ma'am, I would hope that the service 
and the service members would say I have done a reasonably good 
job of that. But would I tell you have I got it right? I would 
tell you I am trying to address many cases from previous, and I 
don't pass that on my predecessor. On 1 June 2018, I took the 
reigns of this service and with that whatever came with that. 
What we have tried to do is go back and understand those cases, 
propel them forward as learning opportunities, and address 
matters. I think it would probably be incumbent on, you know, 
my 57,000 shipmates to better answer that question than me, 
ma'am.
    Ms. Clarke. Well, do you believe that there exists within 
the Coast Guard a sort of good old boys' network in which White 
men look out for, promote, and protect each other? If not, do 
you believe such a network ever existed? When did it end? What 
have you done as Commandant to ensure that it does not exist?
    Admiral Schultz. Well, ma'am, when will it end? I don't 
know. Do I believe it exists in society? Does it exist, is 
there probably subsets of it in any of the Armed Forces? Yes, 
ma'am. You know, it is the same conversation with extremism in 
the ranks. Am I aware of any extremists in our ranks? We had an 
extremist in our ranks a couple years ago, and he is doing 13.5 
years in a Federal penitentiary because we identified him. We 
acted on that. We worked with the U.S. attorney's office. We 
disenrolled him from our ranks immediately on prosecution.
    So I am absolutely committed to accountability. If there 
are good old boy networks, as you mentioned, ma'am, then I want 
to bust them up. This is what our 125 cultural change agents 
that are getting outside training are going to do, tied to our 
Diversity and Inclusion Action Plan that we rolled out.
    We started on this trajectory, Congresswoman, on 1 June 
2018. My guiding principals talked about a more diverse Coast 
Guard, a more inclusive Coast Guard being imperative, a 
commander's priority from Day 1. That was on the street when I 
showed up in the office, and the Diversity and Inclusion Action 
Plan was in the works in subsequent months. We are waiting for 
a RAND study that will help us understand barriers to retention 
for underrepresented minorities. That will come in July.
    I created a Personnel Readiness Task Force year one that 
actioned the holistic RAND study for women, and we kept them in 
place. That was a 1-year program that now is in its third year, 
because I want to put that same level of diligence on the 
underrepresented study because in the past, studies have been 
shelf wear. I want studies to be causes and catalysts for 
action, ma'am.
    Ms. Clarke. Well, thank you, Admiral, for your answers.
    Let me yield back to the Chairman. I appreciate it. Thank 
you.
    Chairman Thompson. Thank you very much. The gentlelady 
yields back.
    The Chair recognizes Mr. Norman for 5 minutes.
    Mr. Norman. Thank you, Chairman.
    Admiral Schultz, I want to thank you for appearing today. I 
think this is the first time that a Commandant has appeared 
before the Committee of Homeland Security.
    I just want to thank you for your stance. I appreciate you 
coming to the office. You have been very direct. You have been 
very adamant that the standards have not been compromised, that 
you want the best people, and you want people who want to be in 
the Coast Guard. I just appreciate your dedication to the job, 
and it shows when we--during our conversation at least.
    I know the recruitment goal in 2019 was not what you wanted 
it to. I think you had a goal of 3,600 and you had recruits 
less than 600 that you missed. So, hopefully, we can help you 
do that. I think the Coast Guard is the best kept secret.
    We have got some serious threats; namely, immigration. We 
have got close to 1.2 million to 1.6 million that will be in 
our country illegally. We have got drugs coming in this 
country, and I don't think there is anybody that is equipped to 
handle it like the Coast Guard.
    As you look at the threats, you know, we have got illegal 
fishing. We have got the Russians conducting sophisticated 
joint exercises. They enjoy access to 40 icebreakers compared 
to the 1.5 icebreakers of our fleet. In the South China Sea, 
the Chinese Coast Guard is implementing a new maritime law 
designed to escalate tensions in the region. You know, the list 
goes on and on.
    Can you elaborate on the recent Iranian harassment in the 
Strait of Hormuz and how it affects the Coast Guard's mission?
    Admiral Schultz. Congressman Norman, good to see you this 
morning, sir.
    Let me just start by acknowledging we have never been 
busier. I would say the demand for Coast Guard services 
domestically and across the globe has never been higher. To 
your--through our conversation about standards-based and 
Chairman Thompson's point, sir, I ask young men and women from 
all walks of life to do dangerous things. That is jump on a 
narcotics-laden drug submarine, jump out of a helicopter to 
pull somebody from the water, jump out of a burning ship. Many 
of your membership here from the committee are from Coastal 
States, and I think they understand just how, you know, 
treacherous the work we can do. You know, we don't go out on 
many good days. We go out on tough days and do tough things. So 
we have to remain standards-based, and we will remain 
standards-based.
    In terms of the Iranian situation, sir, you know, we have 
250-plus men and women stationed in Bahrain. They are under the 
tactical command of the Navy's Fifth Fleet, which is a support 
and naval command to the U.S. Central Command Commander, 
General Frank McKenzie. We operate 6 patrol boats there. We 
just forward-deployed our first 2 replacements of the 6, 2 fast 
response cutters, to replace 2 of the 30-year-old Island-class 
patrol boats. Our men and women stand the watch, sir.
    There has been recent multiple news events of having 
interactions with the Iranians. They have upped that game. That 
has become increasingly an aggressive adversary, and our folks 
show great discretion. They are very much completely integrated 
with the naval team there.
    We have a team of what we call maritime engagement trainers 
that train allied and coalition partners on naval procedures in 
the region, law enforcement procedures that is very effective. 
Then I have an advanced interdiction team, a team of 12 people 
that come out of our--what we call our maritime securities 
[inaudible]. Those are our highest-end assaulters. We have a 
team in Chesapeake, Virginia, a team in San Diego. That team 
forward-deployed is on a rotational basis with the Marines, 
Expeditionary Marines, the U.S. Navy Seals, and the Coast Guard 
AIT. Sir, they were just tied into, I think it was the USS 
Normandy, in one of the largest weapons cache seizures. It 
encapsulated the entire flight deck of that DDG with just, you 
know, shoulder launch weapons, Chinese-built Kalashnikov-type 
rifles.
    So we are engaged in the area, and it is an increasingly 
difficult Iranian counterpart operating these fast interceptor 
attack craft, and our men and women are highly trained, 
professional, and truly integrated with their Navy colleagues 
in the region, sir.
    Mr. Norman. Well, let me ask you this. As it relates to the 
cartels and the huge problem this country faces with the 
illegal immigrants coming across the lines along with drugs, 
what can we do in Congress to help you patrol the area and to 
try to correct the situation that is totally out of control 
now?
    Admiral Schultz. Congressman, I would answer that in 2 
parts. I believe--and I have tried to link this in various 
Congressional testimonies and other, you know, public speaking 
events, that I believe the counter-narcotics work we do both in 
the Eastern Pacific and in the Caribbean Basin is directly tied 
to the instability, the corruption that occurs in the Central 
American corridor, that occurs in Mexico.
    So I think continued support to the Coast Guard counter-
narcotics efforts is important to affect, you know, why are 
people leaving to try a border region. Why are they leaving 
Central America, Honduras, Guatemala, El Salvador? It is 
because of corruption. They can't find a better life for their 
kids, and they make that difficult, dangerous choice.
    I believe for the other part of that answer, sir, is, you 
know, I have got 185 coastguardsmen today supporting our DHS 
colleagues at the border, 38 medical professionals, 150 general 
purpose Coasties that are standing the watch so that Border 
Patrol agents can be on the front lines.
    Sir, I think the best way to keep the Coast Guard 
responsive in that space is about a 3 to 5 percent annual 
budget growth. We weren't part of the 2018 12 percent bump-up 
that the Armed Forces got for readiness, but we are getting 
after that in the 2021 appropriations, sir, and it is just some 
positive trajectory on the operations and support side the 
Coast Guard budget allows us to continue to build the Coast 
Guard the Nation needs, sir.
    Mr. Norman. Thank you for being a voice of reason. Thank 
you for your straightforwardness, and really appreciate your 
dedication to a great arm of the military, and hopefully we can 
strengthen you in the future with funding and other sources.
    I yield back the balance of my time.
    Chairman Thompson. The gentleman's time has expired.
    The Chair recognizes the gentleman from California, Mr. 
Swalwell for 5 minutes.
    Mr. Swalwell. Thank you, Chairman. I want to thank Admiral 
Schultz.
    I have been to the Alameda Coast Guard facility just 
outside my district, and I have seen the terrific work that the 
men and women who serve the Coast Guard do. I want to thank you 
for that. You are right, there is no easy day. You are not 
called for celebratory events. You are called because of a 
crisis, and I have seen that.
    Admiral Schultz, I want to talk about the Culture of 
Respect report that in 2015 found serious cultural issues 
within the service. However, the report and its findings were 
never released service-wide. It recommended that its underlying 
analysis be repeated every 3.5 to 4 years, which would mean the 
next report would be 2018 to 2019, but that report has not been 
issued.
    Is that report going to be coming? If not, could you just 
give us a reason why?
    Admiral Schultz. Well, Congressman Swalwell, good morning, 
sir. Thank you for taking an interest in your California 
coastguardsmen. They do a great job. I will be out there the 
end of next week here to finish the second part of the Pac Area 
change of command. We just--Linda Fagan left there, became our 
first female four-star in the history of the Coast Guard last 
Friday, and we will be back there to in-State Vice Admiral 
McAllister.
    But, sir, the Culture of Respect report was an internal 
report document created by my predecessor, the 25th Commandant 
of the Coast Guard, Admiral Zukunft, and that report was, you 
know, was an internal product that he made a decision on what 
they did or didn't do with that. I don't believe that was ever 
intended as an external report. I think folks who grabbed that 
and said we are burying that report, I don't see it that way. I 
would say we have dove into these same type of issues. That 
recommendation about continuing that report was a 
recommendation.
    You know, would it be wise for us to look at something 
similar? You know, when I came in, we had a team look back at 
the findings of the Culture report. I think we pulled findings 
and information from that forward into our decision making, 
into our crafting of the Diversity and Inclusion Action Plan 
that we rolled out summer of 2020, sir.
    I think, you know, the findings, some of that is reflected 
in the women's holistic study conducted by RAND that we 
received the results in 2019. I believe some of the findings 
will be reflected in the RAND URM study that will be 
forthcoming in July.
    But, sir, I would say, I am not going to get into the 
predecisional decisions of my predecessor, but that was not a 
report, I believe, that was intended for outside. Some will try 
to spin it that way or say we were burying that. I don't see it 
that way at all, sir.
    Mr. Swalwell. Will you undergo a new report or a new study 
to generate a new report?
    Admiral Schultz. Congressman, we are always looking at 
studies. What I would like to see is what the sufficiency and 
the quality of the RAND report is, because I think that is a 
multimillion dollar investment for that report. We are going to 
take the Personnel Readiness Task Force actioning on those 8 to 
12 bodies that I brought on board to action the holistic 
women's report and take the same approach.
    We have already actioned, I mentioned, the mentoring 
application that we are using. I have already talked about 
officer recruiters in 4 key locations. But, I mean, if we don't 
find that to be sufficient in something like a Culture of 
Respect like report would be useful, sir, absolutely. I am 
hesitant to make a commitment, because we made a significant 
investment to get a report that is imminent here in the next 30 
days or so that I hope will put us on the trajectory to 
continue to make positive change in our service, Congressman.
    Mr. Swalwell. Admiral, my Congressional district in the 
East Bay is one of the most diverse in the country. This past 
weekend, we celebrated and sent off over a dozen individuals to 
the military academies, all of the academies except the Coast 
Guard. It was a diverse class that reflected the district.
    What can we do as Members of Congress to help the Coast 
Guard recruit the best and brightest, particularly those that 
come from disadvantaged backgrounds or minority communities? I 
understand the diversity report that you just presented, but 
how can Congress assist you in making sure the Coast Guard 
looks like, you know, the country it seeks to protect?
    Admiral Schultz. Yes, Congressman. Thank you for the 
question. The fact that you know you had, you know, how many 
service scouting members destined to their respective 
academies, it is good that you know that. What I like to--and 
you know you didn't have any Coast Guard. I like to make sure 
Members of Congress that have a Congressional process to screen 
and award Congressional nominations put into that conversation, 
hey, there is another academy. It does not have a Congressional 
appointment, but it is the Coast Guard Academy. I think when 
you look at our academy, it is almost 40 percent women. We are 
really excelling on that front better than any of the other 
service academies. There is a great news story there.
    I am looking at the demographics of the in-bound class that 
will report here in the next week or so here. We have 285 
students that have accepted appointments to the Coast Guard 
Academy, plus 8 international students. 114 are female, that is 
40 percent; 104 are underrepresented minorities, that is 36 
percent. That is the largest number of underrepresented 
minority students in the history of the Academy to ever accept 
it.
    So there is some good news stories. There are 43 Asian 
American--Asian American/Pacific Islanders in that subset, 28 
African Americans. Now, the Chairman's point, 28 of 285 is 10 
percent. That is not reflective of society. It is better where 
we are in the 6 percent, and we have to continue to improve 
there. These conversations about the Academy not being 
inclusive are not helping.
    So I have absolutely tried to turn that story around and 
make sure everybody sees the Academy as the most inclusive 
institution of all the service academies. Hispanic, 25 Hispanic 
Americans. As the demographics of America change, 25 of 285 is 
not a winning success story, sir. We need to be up nearly 18 
percent of society that is represented by Hispanics, marching 
toward 50 percent in the coming decade. So that is an area that 
is drawing my attention.
    So, Congressman, what you can do, I believe, is make sure 
folks are aware of the Coast Guard Academy. What we can do is 
make sure--your fellow Californian, Chairwoman Roybal-Allard 
from Appropriations Committee, has said, sir, Commandant, you 
have got to give me some materials. You have got to give me 
some action stuff. You have got great materials. Help me put 
those in my office so I can encourage these kids who may not 
get the Naval Academy appointment, tell them about you and show 
them something that gets them excited, sir.
    So I own that. We will work with you to figure out how we 
can help you be an ambassador for our academy that is a merit-
based, non-nominative [inaudible]. The non-nominative piece is 
tricky. We have 1,100 students, so we bring in that 285, try to 
figure out how you prorate that across 535 Members between the 
House and the Senate, and you probably need an actuarial to 
work that. But Chairman Thompson has continued to challenge us 
to think through that and talk through that, and we will 
continue that discussion with his legislation that is currently 
enacted and herein we are responding to.
    Mr. Swalwell. Thank you, Admiral.
    I yield back.
    Chairman Thompson. Thank you very much.
    Admiral, one of the things, as you know, is we have been 
good at getting people into the Academy, but we have had 
challenges retaining them. So I would hope that you have a 
plan, which you have alluded to, to work on making sure that we 
give those people coming into the Academy every effort to 
complete it. You have referenced that when Congressman Payne 
talked about it, and I would encourage you to continue to do 
that.
    Admiral Schultz. Chairman, if I could 1 second, you know, 
we--absolutely, sir, you are absolutely correct. You know, when 
I came through the Coast Guard Academy in 1983, it was less 
than 50 percent graduation rate. You know, we are about 87 
percent. So we are keenly focused on those young men and women 
that we send through an American taxpayer-funded education to 
be successful there. There is some things that, obviously, are 
trap door issues and they can't get through, but we want folks 
to get through to the extent they can adhere to our core 
values, and we want to make sure that is equitable and, you 
know, that the numbers of folks that are trained are reflective 
of--you know, they are comparable. They are not, you know, 
biased toward one group or another group. We are absolutely 
studying that, sir.
    We are using the Academy scholarship program, which is a 
preparatory year, 25 percent of that incoming class of 285, 20 
percent into our Coast Guard Academy scholars to make sure 
folks have the right academic level of preparation to be 
successful. The Academy has done some really good jobs, writing 
coaches, outside resources. We made that investment, let's make 
sure we get them out the door.
    Then, really, let's make sure they are successful out in 
the fleet. I went back this year in my leadership. Rather than 
talking at the cadets, I moderated a panel with a diverse group 
of Coast Guard junior officers out in the fleet to make sure 
the young cadets that are getting ready to graduate and the 
cadets in the junior years see a Coast Guard that is welcoming 
to them, regardless of their background, their culture, their 
heritage. I want everyone to realize the Coast Guard is out 
there, we need you, and we are committed to you, male, female, 
whatever demographic, sir.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentlelady from Iowa for 5 
minutes, Mrs. Miller-Meeks.
    Mrs. Miller-Meeks. Thank you, Mr. Chair.
    Thank you also, Admiral Schultz, for your service and your 
answers to this point. I am a 24-year Army veteran, but also a 
commissioner for my Wapello County Veterans, and our director 
is a Coastie. So you are well-represented in our locality.
    You have heard about the crisis and the cartels at the 
border, but I am going to turn our attention to a little bit 
different part of the globe. It is imperative that the United 
States counter the People's Republic of China's or the Chinese 
Communist Party's growing influence and ambitions as evidenced 
in its poor Silk Road efforts.
    What is the Coast Guard doing to augment the development 
and deployment of maritime domain awareness technologies, as 
well as surface presence capabilities in the Arctic?
    Admiral Schultz. Thank you for the question. I am glad we 
have a coastguardsman that is tied into the veterans 
organization up there. That is fantastic, and thanks for 
acknowledging that individual.
    Ma'am, we are absolutely part of the conversation on how do 
you temper war in a great power of competition, National 
Security Strategy we find ourselves, National Defense Strategy, 
we bring a lot to that. You know, the Coast Guard did a tri-
service maritime strategy advance at sea with the CNO, Admiral 
Gilday; Commandant of the Marine Corps, Dave Berger; myself, we 
put that out last fall. That talks about the increasingly 
important role of where the Coast Guard fits into the 
deployment of integrated all-domain naval power across the 
globe.
    We have been a Pacific-based Coast Guard for more than 150 
years. I believe what we--when you talk about the One Belt, One 
Road; the Polar Road; Silk Road, all those different Chinese 
initiatives, what we bring is a people-to-people relationship 
difference. You know, out in Oceania, the Pacific Island 
nation's Federated States of Micronesia, the CNMI, that region 
of the world, you know, these nations derive 50 percent plus of 
their gross domestic product from the ocean. They have very 
little enforcement capabilities. They are subject to illegal 
fishing, IUU fishing, by powerful distant water nation-states, 
the most worse aggressors being the Chinese.
    What we can do is we can come in and we can capacity-build. 
We can help them understand the threats of their ecosystems. We 
can help them develop their law enforcement capabilities. We 
can partner. The Australians have a patrol boat program. We can 
work with the Australians on training, on maintenance. We have 
deployed National Security Cutters. National Security Cutter 
Kimball came back from operations out near Fiji recently. We 
have 3 Fast Response Cutters. These are new patrol boats that I 
will be commissioning in Guam here in the coming weeks. They 
have 10,000-mile expeditionary range so we can get out and do 
things with those boats that we couldn't do with their 
predecessors, the Island-class patrol boats. We are renaming 
our sector in Guam as really forces forward-deployed in Guam, 
because they are increasingly part of this conversation about 
how do you temper and increase the aggressive antagonistic 
coercion of China.
    I believe what we bring, ma'am, as United States Coast 
Guard, a recognized world class Coast Guard, is we bring a 
credible voice. When we say Coast Guards, you know, what I see 
the Chinese government using is using their Coast Guard as the 
actioning arm in the South China Sea and the East China Sea. 
Their PLA and Navy sort-of stays at a distance. It is the 
Chinese Coast Guard, the people's maritime militia, that is 
used to run down Vietnamese, Indonesian fishermen in disputed 
spaces.
    We can come in and say, hey, the world's best Coast Guards 
don't operate that way. We follow modern maritime governance. 
We follow the international rules-based order. I believe that 
is what we bring them. We don't bring a ton of capacity, but 
strategically utilized, you know, some deployments, the 
authorities building a like-minded coalition of partner 
nations, NGO's, academia on this IUU fishing threat, I think 
the Coast Guard is an absolute critical enabler to that whole-
of-Government fight in this great power model we find 
ourselves, ma'am.
    Mrs. Miller-Meeks. Thank you.
    Mr. Chair, I yield the balance of my time to Representative 
Guest.
    Chairman Thompson. The gentlelady yields time to Mr. Guest.
    Mr. Guest. Thank you, Mr. Chairman.
    Admiral, I want to talk very briefly about the Arctic. The 
United States has been an Arctic nation since we purchased 
Alaska in 1867, but the Federal Government has not invested in 
new icebreakers since the Healy was commissioned in 1999. The 
Coast Guard icebreaker fleet has a total of 2 ships, the Polar 
Star and the Healy. Meanwhile, Russia has the largest 
icebreaking fleet in the world, numbering over 40 ships, with 3 
more under construction and a dozen planned in the next decade.
    Could you please speak on the importance of investing in 
new icebreakers and what we are seeing to implement the plan 
that was put in place by the previous administration that 
outlined the construction of 6 new icebreakers?
    Admiral Schultz. Congressman Guest, thank you for the 
question. You are absolutely correct. We are woefully 
underinvested in high-latitude capability capacity in terms of 
icebreakers. The good news story is I believe this is a 
bipartisan, bicameral issue on Capitol Hill. It commanded the 
attention of the former administration. It commands the 
attention of the 46th President's administration. We are having 
very constructive conversations.
    I would say there was a clear hand-off of the baton about 
the importance of having increasing U.S. presence in the high-
latitude regions. Now, we have got to build these ships, and we 
haven't built an icebreaker here, a heavy icebreaker, in more 
than 45 years. It is unique steelwork. We have awarded a 
contract to VT Halter in the spring of 2019. Steel should start 
being cut in the coming months. That is a program of record 3 
ships. Earlier, I alluded to 2 being funded.
    There is really a conversation that needs to happen, and I 
have had these conversations with the former National Security 
Council and continue to have these conservations with the 
current National Security Council. But, really, it is probably 
4 to 6 heavy icebreakers is what we really need, and we need 
some medium breakers.
    The good news is we have conditioned the space. My 
predecessors, the 25th, 24th, 23d Commandant, talked for over a 
decade about the importance of more icebreaking capacity. Now, 
we, I think, convinced, you know, those folks that are decision 
makers in the political realm of the importance and how we go 
about building the ships. So if we can maintain momentum, 
continue discussions about what a really capable United States 
Arctic nation looks like in terms of capacity, I think we will 
get to a better place.
    The Navy, the Air Force, the other services are obviously 
keened in on the Arctic. The Arctic, you know, presents a very 
high-risk vulnerable approach. The NORTHCOM Commander, General 
VanHerck, talks about the Arctic all the time in terms of the 
risk we see, Russian long-range bombers operating off Alaska in 
increasingly high numbers and increasing volume.
    So there is a lot of geostrategic importance in the Arctic, 
sir, and I think we are getting after it. You know, if we can 
ramp up the pace, that is absolutely--I would welcome that 
discussion. But right now, we are on a much better trajectory 
than we have been.
    Chairman Thompson. The gentleman's time has expired.
    Mr. Guest. Thank you, Mr. Chairman. I yield back.
    Chairman Thompson. The Chair recognizes the gentlelady from 
New Jersey for 5 minutes, Mrs. Watson Coleman.
    Mrs. Watson Coleman. Thank you, Mr. Chairman, and thank you 
to the Ranking Member for bringing us together for this really 
important meeting.
    Admiral, it is good to see you again. I really appreciated 
the conversation that we had in my office. I want you to know 
that I have great respect for your mission, for your 
leadership, and you know where I stand as it relates to making 
sure that you have the fleet that you need. I am 100 percent in 
support of it.
    But I would like to focus--refocus our attention on the 
purpose of today's hearing, which has to do with achieving 
diversity, equity, and accountability within the service.
    I know that you are aware that in December 2018, the Office 
of Inspector General report substantiated the allegations of 
retaliation against Kimberly Young-McLear, lieutenant 
commander, in violation of the Military Whistleblowers 
Protection Act. Additionally, the Majority staff report issued 
by this committee and the Committee on Oversight and Reform 
made clear that the lieutenant commander's allegations of 
harassment and bullying were never fully investigated.
    I also understand that the captain who allegedly harassed 
and bullied her has since retired from the Coast Guard. 
However, there are others still within the Coast Guard who 
allowed her allegations to go uninvestigated and who failed to 
protect her from retaliation.
    It is imperative that the Coast Guard holds these leaders 
accountable for retaliation and ensure survivors are made 
whole. It is important for us to have these plans and these 
intentions and this training, but the consequences of behavior 
is vitally important as we try to improve our system and the 
culture within our system.
    So I want to ask you, what specifically has the Coast Guard 
done to hold individuals accountable for the failures that 
occurred in this case? What has been done to hold individuals 
accountable in other cases of substantiated retaliation?
    Admiral Schultz. Well, Congresswoman Watson Coleman, ma'am, 
it is good to see you, and I enjoyed the opportunity to come 
chat with you in your office, and thanks for your frankness.
    You know, ma'am, this case that you reference to in the 
2018 DHS IG whistleblower case, obviously a landmark case, and, 
you know, that came to my attention about 5 months into my 
assignment here. I made a statement--it came to my attention 
that the whistleblower report had dropped when I was at a press 
event at the National Press Club, and I said we absolutely have 
to thank whistleblowers and I own the situation, and we are 
going to have to get after-action on that.
    Ma'am, I have studied that case at length. There were 3 
investigations. The first investigation was convened by the 
superintendent at the Academy to look into Ms.--you know, then 
Lieutenant Commander Young-McLear, now Commander Young-McLear's 
assertions or allegations. It was investigated. It recommended 
additional investigation.
    The then-assistant superintendent called for--and this is 
in a timely fashion, a very responsive fashion, called for a 
subsequent investigation, a climate investigation. That was not 
the optimal or the artful tool for that subsequent 
investigation. It had, you know, meaningful findings that 
painted a picture of the relationship between the faculty 
member, Ms. Young-McLear, and her boss, and there was some 
issues there, but it was not the right tool.
    Our subsequent changes to our anti-harassment, anti-hazing 
incident policy will clarify that you do not use a climate 
survey, climate investigation in forthcoming cases. That was 
not an appropriate tool. There was--you know, the assistant sup 
subsequently departed the Academy in the subsequent months. His 
successor came in. Another allegation came in. Another 
investigation was triggered. This time it came to the 
headquarters level, though, but you talked about the 
substantiated findings.
    We had a Coast Guard GS-15 former lieutenant colonel of the 
Army who did the investigation, and she found--you know, her 
findings were there were, you know, blatant acts of 
discrimination, bullying, but when reviewed in the whole----
    Mrs. Watson Coleman. I am sorry, Admiral. I have a couple 
of questions.
    I know that you are--there has been substantial improvement 
to the investigation process, who investigates and how it is 
investigated. I am concerned with when you find substantiated 
allegations, what are the consequences to the individuals that 
either perpetrated the harassment or the discrimination or 
allowed it and didn't do anything about it? What are the 
actions that were taken?
    Admiral Schultz. Yes, ma'am. I think in this case it is 
kind-of critically important to that, so just to finish. So Ms. 
Davis' investigation painted the picture. You are familiar what 
she said, considered the environment to be intimidating, 
correct. She also went on to say she did not recommend 
disciplinary action.
    I reviewed each and every one of those investigations, 
ma'am, and in that time line that transpired, it started back 
in, you know, 2014, 2015, through 2018, the officer, the 
captain at the Academy, the department head, had since been 
reassigned inside the Academy, subsequently reassigned to the 
R&D Center, put a retirement letter in. There was not 
sufficient grounds for me to take disciplinary action or 
administrative action. So what I focused on was corrective 
action.
    Mrs. Watson Coleman. So, sir, we do acknowledge the fact 
that she was the victim of harassment and bullying. Is that 
right?
    Admiral Schultz. Yes.
    Mrs. Watson Coleman. Right. The Chairman asked you this 
question, but you artfully dodged the yes or no. Has there been 
a public apology specifically to her on this issue? In 
addition, sir, would you be willing to issue a written apology 
for the record on this? That is simply a yes or no.
    Admiral Schultz. Congresswoman, I am not sure it is as 
simple as a yes or no question. I would say I sent the four-
star Vice Commandant to the Coast Guard Academy early in 2019, 
and he did issue a verbal apology to the commander in front of 
her faculty members and peers.
    I was up there subsequent weeks at a leadership address, I 
talked about my most recent, and I addressed the cadet corps. 
The first question I got was from Commander Young-McLear, then 
Lieutenant Commander Young-McLear. I stated that the Coast 
Guard had not done right by her and that was unfortunate and we 
are actioning that and moving forward, ma'am.
    You know, will I issue a written apology? That is a tricky 
business in the service. The Chairman asked me if I would 
apologize up-front to men and women that were wronged, 
absolutely so. We are in a scheme of good order and discipline 
military uniform justice----
    Mrs. Watson Coleman. Thank you.
    Admiral Schultz. We have a 57,000 work force, ma'am. You 
know, this is a tricky space, but I have apologized----
    Mrs. Watson Coleman. Yes, it is a tricky space, sir. I am 
sorry, it is a tricky space, but we cannot have people who are 
trying to serve our country in this capacity or any to be 
harassed or discriminated against because they are a woman or a 
minority or a gay or whatever.
    So where we find that, not only do we sort-of articulate 
our--that it is unacceptable to have this culture, there have 
got to be consequences, because if there are no consequences, 
there is no changed behavior, and simple reassignment is not 
really a consequence.
    I want to know what----
    Chairman Thompson. The gentlelady's time has expired.
    The Chair recognizes the gentleman from Texas, Mr. Pfluger, 
for 5 minutes.
    Mr. Pfluger. Thank you, Mr. Chairman.
    Admiral, thank you for your service to this country, for 
keeping our borders safe, our country safe, for what you have 
done throughout your career, for what the entire Coast Guard 
does for leading us through some difficult times.
    As a military veteran, as a service academy graduate myself 
from the Air Force Academy, I also know what it means to attend 
one of those institutions and to train our folks to be 
resilient, ready, and lethal when needed.
    We have heard quite a bit about the threats we are facing 
in our country--China, Russia, Iran, the dangerous drug 
cartels. It appears from my perspective, Admiral, that we 
really--and with 20-plus years of service, that we are really 
facing unprecedented threat levels everywhere around the world.
    I am very interested to hear, from your perspective, what 
is the greatest threat facing our homeland? I have some follow-
on questions to this. So, what is the greatest threat facing 
the homeland right now?
    Admiral Schultz. Well, Congressman, thanks for the 
question. Thanks for your service.
    You know, sir, it is--that is a difficult question, you 
know. The National Defense Strategy, there is an interim 
strategy, and Secretary Austin is working with the senior 
military team. I sit not as a bylaw member of the Joint Staff, 
but at the courtesy of the Chairman and the SecDef at the 
table, and I think we are trying to get our arms around what 
the new National security apparatus, the President's team, 
about what that strategy looks like.
    I think the pacing threat will likely remain China. I think 
Russia, you know, and what we have seen in recent cyber 
activities is clearly troubling, the President having recently 
met with President Putin, and it speaks to the urgency there.
    You know, I think about it through the Coast Guard lens. 
You know, $5.6 trillion, 30 million jobs are tied to the 
domestic marine transportation system, where, you know, 90 
percent, 95-plus percent of our goods enter our Nation through 
our ports and waterways, 360 ports, 25,000 miles of waterways.
    So from a Coast Guard standpoint, it is all of the above. 
You know, we need to project Coast Guard capacity and 
capabilities to support the combatant commanders in the Arabian 
Gulf that we talked earlier about, in the East China/South 
China Sea.
    We just had a National Security Cutter come back from a 6-
week deployment. They were up in the Black Sea as Russia was 
mounting troops here, as we all follow in the news. We were 
able to send a cutter in there. We worked in the--great success 
story. We worked with the Georgians, Ukrainians. We transferred 
excess defense article, former Coast Guard, got boats to them. 
They came out and worked with us. It was a show of NATO allied 
force and partnership collaboration.
    So I would be pressed to say I think it is an amalgamation 
of threats. It is the great power of competition. The Middle 
East, where we are trying to draw down forces and the President 
has declared we are drawing down forces, that is in his 
wheelhouse, and we understand that. The Pentagon is acting on 
that. I think we have to pay attention to all these things.
    So it is a multidimensional threat landscape, and my goal 
is to prepare Coast Guard forces to be put into the fight 
against all those threats.
    Mr. Pfluger. Admiral, thank you for keeping your eye on the 
ball and wading through an environment that we can get 
sidetracked with issues that take our eye off the ball.
    Over the past couple of months, we have seen increased 
Russian aggression, including cyber attacks that you just 
mentioned on our critical infrastructure, tens of thousands of 
Russian troops that are posted up on the Ukrainian border, 
which is the largest build-up we have seen even before the 
illegal annexation of the Crimea.
    The administration stated they were going to respond to 
this build-up by sending 2 U.S. Navy destroyers to the Black 
Sea, but after Putin objected, we turned those ships around to 
appease the Russians. You know, this stand-down signals a 
weakness and a lack of resolve, American resolve, from my 
perspective, on this.
    What do you believe that it signals to our adversaries?
    Admiral Schultz. Well, Congressman, I would tell you, I 
don't know--you know, there is a requirement when you enter the 
Bosphorus Straits to make notifications as a courtesy you are 
going there. There was open press reporting that talked about, 
you know, the Navy is sending ships. The Navy wasn't sending 
ships. I know our National Security Cutter Hamilton was in the 
Black Sea in the wake of that. So we did have a U.S. combatant 
there that happened to have a Coast Guard racing stripe on 
board, and they did some very important work as they 
counterclockwise navigated the Black Sea, partnering with many 
key ally partners there.
    So I am going to withhold any political judgment on that, 
sir. But I would tell you, I believe the Sixth Fleet Commander, 
the NAVEUR Commander put a U.S. surface capability there. Sir, 
I don't think there is an intimation, but I believe the work of 
this hearing that talks about, you know, an inclusive Coast 
Guard and my ability to action those combatant commander 
requirements and homeland requirements are absolutely the same 
conversation.
    People are our business. I need to find the best and 
brightest of America from all walks of life and backgrounds 
that are able and want to serve, and I am going to put them in 
the fight, sir. So these are mutually reinforcing 
conversations, and I am committed to both.
    Mr. Pfluger. Admiral, thanks for that.
    Let me just end by saying that the amount of drugs that are 
entering this country are just incredibly alarming, and I 
appreciate the work that you and the Coast Guard does, and 
would urge you to continue to do that. It is affecting my 
district. The amount of fentanyl that has entered the State of 
Texas in the last 4 months is enough to kill millions of 
people, and we have to continue to fight against that. I 
appreciate what the Coast Guard does every single day in that 
fight as part of homeland security. I appreciate you keeping 
your eye on the ball in the midst of a chaotic environment.
    With that, Mr. Chairman, I yield back.
    Admiral Schultz. Congressman, we pay great attention to 
numbers with the COVID deaths, and that is a tragic, terrible 
tragedy, and we are on a healthier course. Ninety thousand, you 
know, overdoses in drug-related deaths last year, that is 
another number we need to pay attention to, and the Coast Guard 
is just one of many agencies. There is a prevention piece and 
there is an interdiction supply piece, and we are absolutely 
committed to that fight, sir.
    Mr. Pfluger. Thank you, Admiral.
    Mr. Thompson. The gentleman's time has expired.
    The Chair recognizes the gentlelady from California for 5 
minutes, Ms. Barragan.
    Ms. Barragan. Thank you, Mr. Chairman, for holding this 
hearing. Thank you, Admiral Schultz, for joining us today.
    This year, I was appointed to the Coast Guard Board of 
Visitors. This board is tasked with making recommendations on 
the workings of the Coast Guard Academy regarding, among other 
things, recruitment and retention, including diversity, 
inclusion, and issues regarding women specifically. So today's 
discussion is of great interest to me, particularly after the 
committee's 2019 examination of serious cultural issues at the 
Academy and the clear indications that more work remains to be 
done there and across the entire service.
    Specific to the Academy, in a 2018 survey, almost half of 
the female cadets reported having been sexually harassed, and 
reports of sexual harassment and unwanted sexual conduct have 
increased among male as well as female cadets at the Academy 
since 2016.
    Admiral Schultz, the Coast Guard's recently issued report, 
``Sexual Assault in the U.S. Coast Guard for Fiscal Year 
2020'', shows us that the overwhelming majority of survivors of 
sexual assaults in fiscal year 2020 were women.
    What percentage of these survivors are women of color?
    Admiral Schultz. Congresswoman, I would have to get back 
with you on that. I do not have that specific data in front of 
me, but I will ensure that we reach back to your staff, to the 
committee with that as soon as possible, ma'am.
    Ms. Barragan. I appreciate that.
    Do you happen to know if you are seeing any trends in the 
data?
    Admiral Schultz. Congresswoman, I think when we look at the 
sexual assault data, and we respond through a lens called 
Sexual Assault Prevention, Response, and Recovery, we updated 
our policy to focus on the recovery of victims as well. You 
know, (A), any one sexual assault, sexual harassment case is 
too many. You know, the trend, there is an uptick this year 
from last year. If you go back 5, 6 years, it is on a slow 
glide slope, you know. Some would attribute, you know, more 
comfort in reporting. I think that is a tricky thing to do.
    You know, I believe we have created a more open environment 
to report. We have some ability now where you can, you know, 
confide in a friend as you try to navigate whether to report, 
restricted, unrestricted reports. We are working hard to 
eradicate sexual assaults, sexual harassment from our ranks, as 
are the other services. We are working about, you know, the 
military justice and anxiously waiting to see where Secretary 
Austin steers us.
    But it is on-going work, ma'am. You know, with the 45 
percent statistic at the Academy, I have met with the Academy 
faculty, and I have said, if that is, in fact, a true statement 
reflective of the cadet corps, then I wouldn't be able to go 
home on a Friday afternoon unless I did something that day to 
drive that number from 45 percent to 44 percent to 0 percent. I 
have put my voice against that to say, is that an adherent 
statistic? I hope that is not reflective.
    I would invite any Member of the committee--I salute your 
willingness to be on the Board of Visitors and encourage--we 
reactivated that. As an external body, it is not easy with our 
academy in New London to get that connection, ma'am, but I am 
committed to that. That is why we have reinstated it. I welcome 
the Chairman or any of the Members to come up there and see the 
Academy. It is an energizing place. But we have areas to 
improve, ma'am, and we are working on that.
    Ms. Barragan. Thank you, Admiral.
    Would you agree that sexual harassment jeopardizes 
readiness and mission accomplishment?
    Admiral Schultz. One thousand percent, yes.
    Ms. Barragan. That it also weakens trust within the ranks 
and erodes unit cohesion?
    Admiral Schultz. Same answer, ma'am.
    Ms. Barragan. Well, thank you for acknowledging that, 
because one of my colleagues who earlier stated this hearing 
wasn't a priority, I think our National security is a priority, 
and this goes directly to the National security of this 
country.
    Admiral Schultz, we know that the women, and women of color 
in particular, are underrepresented in the Coast Guard ranks. 
How can they feel comfortable staying in or even joining the 
Coast Guard if they don't feel confident that their complaints 
will be taken seriously and that justice will be served?
    Admiral Schultz. Well, ma'am, what we need to do, 
Congresswoman, is we need to make sure, (A), they are treated 
with respect and dignity, and when they have concerns or 
issues, that we are responsive to those. I am hoping that these 
125 change agents, which are about 85 percent to completion, as 
we start deploying them here in the coming weeks and they are 
having the difficult conversations here raising the diverse and 
inclusive acumen of our leaders, of our coastguardsmen, I think 
that is going to be a positive step for that.
    Then to the questions from Mrs. Watson Coleman and others 
about accountability, we absolutely have to be an organization 
that is focused on accountability, and we will be that. Have we 
always got that right? We have not, but we are trying, and we 
will--you have my commitment. I know it is not--my commitment 
and it stops below me. This is the commitment of the Coast 
Guard senior leadership team, and we are working with our chief 
petty officers who are critically enabling body. They are our 
senior listed recognized leaders. The chiefs mess are on board. 
The master petty officers on board, and we are trying to create 
that environment, ma'am, that allows us to be successful, that 
allows us to attenuate the security needs of the Nation, as you 
eloquently articulated.
    Ms. Barragan. Well, thank you, Admiral.
    I think it is important that we focus on how leaders of the 
Academy are trained to handle reports of sexual assault and 
harassment and certainly, you know, when a cadet reports 
harassment by a member of the faculty. So I look forward to 
working with you and improvements in this area that is so vital 
to National security and to our homeland.
    With that, Mr. Chairman, I yield back.
    Chairman Thompson. The gentlelady yields back.
    The Chair recognizes the gentleman from Michigan for 5 
minutes, Mr. Meijer.
    Mr. Meijer. Thank you, Mr. Chairman.
    Thank you, Admiral, for joining us here today. I represent 
west Michigan. While I am not fortunate enough to touch part of 
our wonderful Great Lakes, obviously, we are proud of our 
coastguardsmen and--women, all of those who are helping to 
patrol our waters, not just internationally but also along our 
Great Lakes and our Northern Border with our good ally Canada.
    I wanted to both thank you for your earlier commitment to 
maintaining a strong and representative force and making sure 
that we are doing everything we can to stamp out anything 
within those ranks that may undermine the trust and faith that 
so many of the young men and women who join up in our uniformed 
forces have in their senior leadership and their right to be 
treated with dignity and with respect, in ways that build and 
maintain their unit cohesion so they can focus on the mission 
above all else.
    But I just wanted to drill down a little bit into Coast 
Guard priorities around our Great Lakes. As I mentioned, they 
play a vital operational role for both safety and security in 
our maritime environment.
    I am curious, just, in your view, in your current role, you 
know, what operational challenges is the Coast Guard currently 
facing within its Great Lakes region? Are there any persistent 
challenges to mission readiness that you are seeing?
    Admiral Schultz. Yes, Congressman, thanks for the question. 
I am a guardian of the Great Lakes. From 1996 to 1999, I 
commanded a ship out of western Michigan in Charlevoix. The 
Great Lakes is a great place to be a coastguardsman--the 
world's largest supply of freshwater, critically and 
strategically important to the Nation economically.
    So, sir, some of the challenges we have in the Great Lakes 
are challenges we have in other parts of the Nation. We have 
aging infrastructure--you know, piers, boathouses. Not too long 
ago, when I visited St. Ignace in my 3-year tenure to date as 
the Commandant, you know, they were doing boat repair work in 
the salt facility that the highway used for salt repairs on the 
roads. That is unacceptable. We need to do better by our folks. 
So we are getting after those infrastructure challenges across 
the Coast Guard, and, again, up in the Great Lakes, there are 
the same things there.
    So, in the Great Lakes, we have an air station in Detroit, 
an air station in Traverse City. We recently changed the 
aircraft in Traverse City from 65 Dauphin smaller, short-range 
helicopters to longer, medium-range, what we call Jayhawks. 
Very capable. We stand a summer watch down in Chicago and over 
in Muskegon.
    So we are having a heck of a lot of challenges with our 
fleet of 98 MH-65 Dauphin helicopters just in terms of their 
readiness, parts availability. We have flown them beyond any 
other organization in the world in those helicopters. I need to 
drive 98 down to a smaller number and drive up the fleet of 
Jayhawks to a bigger number. It is about 48 today, and I need 
to increase that.
    You know, standing those summer watches in those places is 
increasingly challenging. With the 60 in Traverse City, that 60 
really has to reach to ameliorate some of the concerns of why 
we had those [inaudible] in the first place.
    So I would welcome an opportunity with the Members of the 
Michigan delegation about some things that have changed: Our 
increasingly more capable platforms on the surface, our 
increasingly better reach and on-time sustainment in the air 
with the Jayhawks.
    But stealth and helicopters are really proving problematic 
for us in terms of parts, reliability. We are committed to that 
for another decade or so. But, you know, where do I absolutely 
need to have them and where could we take very minimal risk and 
still attenuate the concerns of your Great Lakes citizens, sir, 
I would welcome that conversation.
    Mr. Meijer. Thank you, Admiral.
    While, obviously, many in Michigan are used to seeing the 
orange Dauphins flying over our shores and our beaches, as 
someone who has served in the Army, I very much appreciate the 
Black Hawk platform and everything that that can do in order to 
have an expanded range.
    I am little dismayed to hear--St. Ignace has some of the 
best smoked whitefish in the world, but it is frustrating that 
their boat repair capabilities are having to be outsourced to 
the road maintenance folks.
    I guess just real quick, and you touched upon this briefly, 
but just if you could put a finer point on it, you know, 
please, what other areas besides that conversation and the 
rerouting of some of our aerial assets, what can Congress do to 
ensure the Coast Guard has the resources it needs to carry out 
this mission not only on our Northern Border but also to kind-
of patrol the inland seas?
    Admiral Schultz. Yes, Congressman, I think--I will refer to 
an earlier answer. I think, for us, it is, you know, an 
organization that lost 10 percent of our purchasing power on 
our operations and support budget over the last year, sort of, 
8, 9 years post-sequestration, it is getting healthy there.
    You know, the Congress has invested in its Coast Guard in 
the last couple budget cycles. It is maintaining that momentum 
so we can continue our recapitalization programs and, really, 
that 3-5 percent annual growth. That would allow me as a 
service chief and my successor to put forth the Coast Guard 
that can attenuate the needs of the Nation, both at home and 
across the globe.
    Mr. Meijer. Thank you, Admiral.
    Thank you, Mr. Chairman. I yield back.
    Chairman Thompson. The gentleman yields back.
    The Chair recognizes the gentlelady from Florida, Mrs. 
Cammack, for 5 minutes.
    Mrs. Cammack. Well, thank you, Mr. Chairman.
    Thank you, Admiral Schultz, for appearing before the 
committee today, and thank you for your service.
    I appreciate your commitment to inclusion and diversity, as 
you have expressed in your opening statement and in your 
responses to my colleagues' questions today. As someone who has 
personally worked military sexual trauma cases, I appreciate 
your comments today and look forward to seeing your continual 
engagement on this issue and how we can foster additional 
accountability and prevention in the Coast Guard ranks.
    Now, it is clear that you are committed to addressing these 
issues head-on and resolving them in as timely a manner as 
possible, but I do want to shift over to another urgent issue 
regarding the U.S. Coast Guard's ability to counter Chinese 
aggression in the Pacific. So this is a two-part question, so 
bear with me.
    So, with the recent agreement that the Coast Guard signed 
with Taiwan to improve communications, build cooperation, and 
share information on Coast Guard-related efforts, can you speak 
to that agreement and its importance, but also share if the 
Coast Guard has any plans to conduct any other FONOPs, freedom 
of navigation operations, in the Taiwan Strait in the near 
future?
    Admiral Schultz. So, Congresswoman, thank you for the 
questions. Let me start with the second question first.
    Mrs. Cammack. Sure.
    Admiral Schultz. So the Coast Guard has participated in 
some FONOPs in the region. One of our National security 
cutters--back in 2019, 2 National security cutters, the 
Bertholf and Stratton, deployed back-to-back, 5-month 
deployments each, so they covered about a 10-month period of 
the year. That was when the Arleigh Burke cruisers McCain and 
Fitzgerald were undergoing repair work, so we brought some 
capacity to the conversation. It allowed the Fifth Fleet 
Commander some flexibility of where they assigned their most 
ballistic-missile-capable ships. We picked up some other 
duties. We did sanctions work.
    Any, you know, FONOPs in the region, it is when we send a 
ship to work with the Seventh Fleet, in that part of the world, 
those are decisions by the fleet commander, by the combatant 
commander. So, if we put a ship in the fight, it is a ready, it 
is a trained ship. It has been used in the past, as I mentioned 
for Taiwan Strait transit-type FONOPs, could be in the future. 
But those are decisions that reside at the COCOM and the fleet 
level, but I will send capable assets, upon request, to them.
    To your first question, Congresswoman, here, just on the 
China threat, you know, it is absolutely a Coast Guard piece of 
that. I mentioned about being a recognized Coast Guard, I 
think, that has the credibility that we operate in a rules-
based, modern maritime governance model. We can bring 
credibility through our voice. We can bring credibility through 
our forward-deployed presence, which, in a fairly small Coast 
Guard--we think about the Marines as the next-smaller service, 
north of 180,000 people. We are a 42,000-person Coast Guard. 
But I have demonstrated a willingness to take risk, to put as 
much Coast Guard into that fight as we can.
    Those Fast Response Cutters going to Guam, those National 
security cutters deploying to support the Seventh Fleet 
Commander, we will continue to do that, working closely. I put 
a new Coast Guard captain on the Indo-Pacific staff, in their 
J5 directorate there, to work on how we optimally take finite 
Coast Guard capacity and put it against the top threats.
    I have been in discussions with former NSC staff, current 
NSC staff about, you know, in that part of the world, everybody 
wants more Coast Guard, so how do we go to the right places 
with the right Coast Guard. It doesn't have to always be a 
shift; it can be an adaptive package. It could be training. We 
do a lot of mobile training.
    We are putting a new attache in Singapore. I put an attache 
in Australia this past summer that services New Zealand, 
Australia, and Papua New Guinea. I look at the Oceania region 
as a critically important part of the conversation about the 
Indo-Pacific, and that is work that is really righteous and 
right for the Coast Guard to step up to.
    But, again, there is a capacity piece, so I have to be 
careful to not get too far ahead of my skis in how much I sign 
up to do. But I am willing to put as much as I can into the 
fight, ma'am.
    Mrs. Cammack. Well, thank you, Admiral. I appreciate that.
    Now I am going to bring it home a little bit. So I have a 
question regarding some concerns that I have heard from 
constituents in Florida.
    We are 3 years into the inspection of towing vessels and 
about to enter the final year of the new inspection regime's 
phase-in period. However, I am hearing from several of my 
constituents that the Coast Guard is now rescinding 
certificates of inspection and issuing new requirements on 
things like certified lifeboatmen and changing policy on 
manning vessels with automated engine rooms.
    Can you provide more information as to why the Coast Guard 
is creating new hurdles several years into a phase-in process, 
rather than focusing on proactive enforcement to get us to 100 
percent inspection over the next few years?
    Admiral Schultz. Congresswoman, I need to take that back, 
because I am not familiar with those issues.
    Mrs. Cammack. OK.
    Admiral Schultz. We are working with--you know, we brought 
in a large population, north of 6,500 or so uninspected towing 
vessels. I think there is a tremendous uptick in terms of--or 
upside of that, in terms of safety, safety on the water, safety 
for our mariners that we have a responsibility to do.
    We are working with, you know, third-party oversight. There 
is a split, where some of that work remains Coast Guard work, 
some of that goes to a third party. We have really stepped up 
our game for third-party oversight to make sure the enforcement 
scheme are compliant, they are standards-based.
    The issues you talk about, I am not sure. You know, my 
voice is always talking about the Coast Guard being a common-
sense regulator. If we are making changes mid-stride, let me 
understand what that is, ma'am. Let me make a commitment to you 
to research that. We will work with your staff. We will bring 
back answers to you, if that is acceptable.
    I have not heard those issues. We heard some issues about, 
you know, vessels nosing out, and we worked to find a common-
sense solution with the AWO, which represents a large number of 
the uninspected towing vessels. I meet with them regularly.
    So I want to understand the issue, ma'am, and then I want 
to be able to speak to it from an informed fashion, if that is 
acceptable to you.
    Mrs. Cammack. That works great. Thank you so much, Admiral. 
Our teams will follow up.
    I appreciate your time. Again, thank you for your service.
    With that, I yield back, Mr. Chairman.
    Chairman Thompson. The gentlelady yields back.
    The Chair recognizes the gentleman from Georgia for 5 
minutes, Mr. Clyde.
    Mr. Clyde. Admiral, thank you for being here and for your 
service to this Nation.
    I hope the focus of the Coast Guard remains on equal 
opportunities and not equal outcomes. I believe it is up to 
individual members to determine their outcomes, and the Coast 
Guard should be all about merit-based evaluations with their 
personnel.
    I have complete confidence in the Coast Guard. As a retired 
Navy commander who has spent many years ``hazed gray and 
underway,'' I fully understand that the Coast Guard plays a 
very integral role in the defense of our Nation.
    The strategic environment is rapidly evolving across the 
globe. As our Nation transitions our focus from threats of 
unequal warfare, I know that the Coast Guard's unique 
capabilities will serve as a critical component in countering 
both China and Russia.
    In addition, the Coast Guard's activities complement the 
efforts of Customs and Border Patrol in stopping the illicit 
flow of narcotics.
    So, regarding China, Admiral, it is no secret that China is 
using their maritime industry, Coast Guard, and Navy to expand 
their influence in the Pacific. In addition to expanding this, 
they have used these entities to harass vessels that are 
engaged in oil exploration and other commercial activity.
    Can you briefly explain how the Coast Guard is working with 
our allies to help deter this harassment by China?
    Admiral Schultz. Yes, sir, Congressman. Thank you for the 
question.
    Just on the first point, you know, to ensure those equal 
outcomes, I need to ensure the equal opportunities, and we need 
to address that. I think that is on-going work, and I am 
committed to that. We appreciate the oversight committees' 
focus and priority there.
    In terms of the China, what are we doing, you know, what we 
bring to the region is, we have transferred former Coast Guard 
cutters, what we call in the Excess Defense Program, a DOD-led 
program, to the Vietnamese, we have transferred them to the Sri 
Lankans, we have transferred them to other regional Indo-
Pacific partner nations. The Philippines have 3 vessels. The 
Philippines are building a coast guard--their Navy is less than 
20,000. They are building a coast guard out of 35,000 strong.
    What the regional partners recognize is, you know, the 
coast guard, a coast guard, is an organization that allows you 
to enforce domestic laws and also allows you to bring some 
National security into the conversation. They see the agility 
of our U.S. Coast Guard as really a useful sentinel for them in 
their regional role.
    So what we are doing is, we are helping them build out 
their coast guards. We have an advisor in the Philippines. We 
have an O4 advisor with the Vietnamese. We do mobile training 
teams. We bring many of those regional partners here to our 
resident courses, and we do exchanges at sea.
    When those National security cutters were over there in 
2019, I visited the National security cutter Stratton in port 
in the Philippines to show the Commandant's commitment to that. 
I met with the Philippine leaders.
    My Pacific Area commander, now Vice Commandant, she 
traveled through the region. Some restrictions, obviously, in 
the recent 15, 16 months. But we will do subject-matter 
engagements, we will do senior leader engagements.
    We will do all that, partnered with the Indo-Pacific team, 
because the combatant commander owns the regional 
responsibilities, sir, but we are absolutely about putting as 
much Coast Guard across subject-matter experts, key leader 
engagements, mobile training, forward-deployed platforms, at-
sea exchanges. I think all those things, sir, really bring the 
Coast Guard goodness to that conversation.
    Mr. Clyde. All right.
    Is there anything that we in Congress can do to help you 
with that mission that we haven't done already?
    Admiral Schultz. So, Congressman, I talked about the 
budget. So, at the risk of kicking that can another time, I 
would just say, recognizing, you know, that the Coast Guard, 
which is small, which is outside of the Department of----
    Mr. Clyde. Right.
    Admiral Schultz [continuing]. Defense, is an armed force, 
you know, we had some challenges back in late 2018, 2019, where 
Coast Guard men and women went unpaid for 35 days. That was 
tough. I didn't think, as a service chief, I would be 
explaining to folks why they didn't earn a paycheck. We have 
not quite fixed that.
    We fixed, with the support of the Congress, our parity for 
our retirees. That will go into effect in the coming years, and 
I am excited about that. Some retirees live paycheck to 
paycheck, and the fear of not getting a check is pretty 
palpable.
    Just a continued recognition, you know, Lord willing, it 
doesn't happen again, if we ever have a shutdown, that the 
Armed Forces men and women of the Coast Guard don't somehow end 
up unpaid again. I would like to make sure there is a parallel 
consideration with our DOD brethren and sisters in the Armed 
Forces that reside in Department of Defense.
    Mr. Clyde. Oh, absolutely. I concur with you 100 percent on 
that. You will have my full support to make sure that the Coast 
Guard is on parity with the Department of Defense when it comes 
to that, that there should be no reason that the Coast Guard 
should suffer in any way like that. So thank you for bringing 
that important subject up.
    Admiral Schultz. Thank you, Congressman.
    Mr. Clyde. I have another question for you, regarding 
transnational crime. Since this administration has taken 
office, has the Coast Guard seen an increase in human and 
narcotics trafficking?
    Admiral Schultz. Congressman, I think the narcotic 
smuggling is persistent, and have we seen an uptick or not? 
That is tough to say. You know, we stop somewhere in the 10 to 
20 percent of those illicit narcotics smuggled by sea.
    It is a vast ocean with a finite number of Coast Guard 
cutters involved, Coast Guard law enforcement teams, and a 
finite number of Navy ships, as your Navy is increasingly 
globally deployed and they have to make tough choices about the 
pacing China threat, the difficult Russian problem set, 
activities on the Arabian Gulf and the Middle East.
    I think that is a persistent threat. I alluded to the 
increasing loss of life here domestically from the opioids and 
fentanyls and, really, cocaine. Use is up. Cocaine-related 
deaths are up. So that is important work, sir. But to say, is 
it up, is it down? I don't know.
    I think what we have seen a little bit at the border--this 
is an apolitical statement--is, you know, years back, the 
cartels sort-of steered away from being involved in the human 
trafficking at the border because it threatened their narcotics 
business. It seems to me that the cartels are back. Are they 
the exact same cartels? I don't know. But I think cartel 
transnational criminal activity is alive and well. A well-
funded Coast Guard gets after a large portion of that, and that 
will remain a priority for us, sir.
    Mr. Clyde. Well, thank you. I think you do a great job in 
interdiction too.
    But one follow-up----
    Chairman Thompson. The gentleman's time has expired.
    Mr. Clyde. All right. I yield back.
    Thank you, Admiral.
    Chairman Thompson. Thank you.
    I thank the witness for his testimony and the Members for 
their questions.
    Some Members have indicated that they will have additional 
questions for you, Admiral Schultz, and we ask that you respond 
expeditiously in writing to those questions.
    The Chair reminds Members that the committee record will 
remain open for 10 business days.
    Without objection, the committee stands adjourned.
    [Whereupon, at 11:45 a.m., the committee was adjourned.]



                            A P P E N D I X

                              ----------                              

 Questions From Chairman Bennie G. Thompson for Admiral Karl L. Schultz
    Question 1a. You indicated at the hearing that you see ``a 
potential benefit'' and are ``open to change'' regarding Secretary of 
Defense Lloyd Austin's recommendation to President Biden that the 
prosecution of certain crimes be removed from the military chain of 
command and instead be handled by independent authorities.
    Please fully articulate your opinion of Secretary Austin's 
recommendation.
    Answer. Response was not received at the time of publication.
    Question 1b. You seemed to indicate in your response to a question 
from Representative Sheila Jackson Lee that, should this change go into 
effect, you believe commanders should still be involved in cases of 
sexual assault. Is that correct?
    Answer. Response was not received at the time of publication.
    Question 1c. Given the prevalence of sexual assault allegations in 
the Coast Guard, as demonstrated by the data in the Sexual Assault in 
the U.S. Coast Guard (fiscal year 2020) report and allegations from 
whistleblowers, do you believe that the current system of involving an 
individual's chain of command is leading to full accountability for 
perpetrators?
    Answer. Response was not received at the time of publication.
    Question 2a. The Coast Guard's recently-issued report, Sexual 
Assault in the U.S. Coast Guard (fiscal year 2020), shows that the 
number of reports of sexual assault have more than doubled over the 
last decade, from roughly 100 in fiscal year 2011 to nearly 250 in 
fiscal year 2020.
    What are you as Commandant doing to stop the scourge of sexual 
assault in the Coast Guard?
    Answer. Response was not received at the time of publication.
    Question 2b. Please provide the percentages of sexual assault 
reports that came from women of color for each of the past 5 years.
    Answer. Response was not received at the time of publication.
    Question 3a. As articulated in your testimony, the Coast Guard aims 
to recruit 25 percent women and 35 percent underrepresented minorities. 
You mentioned that the Coast Guard has fallen short of its goals on 
women's recruitment, but exceeded them when it comes to minority 
recruitment.
    Are these percentages on a per-year basis?
    Answer. Response was not received at the time of publication.
    Question 3b. How did the Coast Guard identify these targeted 
percentages, and how frequently are they adjusted?
    Answer. Response was not received at the time of publication.
    Question 3c. What does the data show in terms of retention of the 
individuals who are recruited in pursuit of these goals? What are the 
Coast Guard's retention goals overall and for these populations in 
particular?
    Answer. Response was not received at the time of publication.
    Question 4. You stated in response to a question from 
Representative Emmanuel Cleaver that, ``it is only when we understand 
what is on our people's minds that we can be responsive to that and 
strive to better ourselves.'' Furthermore, in your response to a 
question from Representative Yvette Clarke, you correctly stated that 
``the buck stops with [you].''
    Will you then, as Commandant, commit to meeting regularly with 
whistleblowers and other survivors who are willing, including Commander 
Kimberly Young-McLear, to listen to their stories and hear their 
suggestions as to what is needed to create consistent, unfailing 
accountability for their cases and across the Coast Guard?
    Answer. Response was not received at the time of publication.
    Question 5. The Coast Guard's Civil Rights Manual requires 
investigators of harassment and bullying complaints to have received 
Civil Rights and Civil Liberties-approved training on conducting 
investigations. However, this committee and the House Committee on 
Oversight and Reform found in our 2019 joint investigation that no such 
training actually existed. Does this training now exist? Are all 
investigators now required to receive it? If so, please provide the 
number of individuals who have received this training to date.
    Answer. Response was not received at the time of publication.
    Question 6. Has the Coast Guard pursued the suggestion in the 
Righting the Ship Majority staff report that the service consult and 
collaborate with outside experts and stakeholders, including the 
Department of Homeland Security's Office for Civil Rights and Civil 
Liberties, on implementing the 7 recommendations made in the Righting 
the Ship report? If so, please provide a summary of the outcome of 
those consultations.
    Answer. Response was not received at the time of publication.
    Question 7. The 2019 Righting the Ship Majority staff report 
encouraged the Coast Guard to adopt additional measures to strengthen 
the Coast Guard's processes and procedures for investigating and 
resolving allegations of harassment and bullying beyond the report's 7 
recommendations. What additional measures have been or will be 
implemented by the Coast Guard to that end? What is the time line of 
implementation for each new measure?
    Answer. Response was not received at the time of publication.
    Question 8. What is the Coast Guard's policy to determine whether 
someone accused of wrongdoing should be reassigned or placed on 
administrative leave pending the outcome of a full investigation? Does 
that policy differ if the subject of the investigation is an officer?
    Answer. Response was not received at the time of publication.
    Question 9. Please provide follow-up information regarding the 
Second Chance Program, specifically:
  <bullet> The number of times the Second Chance Program has been 
        utilized in the past 5 years; and
  <bullet> The demographic breakdown of the individuals who have been 
        approved for participation in the Second Chance Program in that 
        5-year time frame, and the circumstances of their 
        participation.
    Answer. Response was not received at the time of publication.
    Question 10. Please detail the Coast Guard's efforts to identify 
and root out White supremacy within its ranks.
    Answer. Response was not received at the time of publication.
    Question 11a. What efforts has the Coast Guard made, in 
coordination with the Federal Bureau of Investigation, to identify 
whether any active-duty, reservist, or retired service members or 
civilian employees participated in the insurrection at the Capitol on 
January 6, 2021?
    Please detail the findings of those efforts to date.
    Answer. Response was not received at the time of publication.
    Question 11b. If no such efforts have been undertaken, why not?
    Answer. Response was not received at the time of publication.
    Question 12a. Last year, you announced a prohibition on displays or 
depictions of the Confederate flag within the Coast Guard.
    How does the Coast Guard enforce the prohibition of the display or 
depiction of the Confederate flag, including at remote postings?
    Answer. Response was not received at the time of publication.
    Question 12b. How many breaches of this policy have occurred since 
the ban was implemented, and what consequences do violators face?
    Answer. Response was not received at the time of publication.
    Question 12c. What is the service doing to ensure any official or 
unofficial Coast Guard items and memorabilia displaying the Confederate 
flag from before the issuance of the ban are also eradicated?
    Answer. Response was not received at the time of publication.
    Question 13a. The RAND Corporation report Improving Gender 
Diversity in the U.S. Coast Guard: Identifying Barriers to Female 
Retention outlined many challenges facing women in the Coast Guard.
    What steps has the Coast Guard taken to remedy the barriers to the 
recruitment, retention, and advancement of women identified in the RAND 
Corporation report Improving Gender Diversity in the U.S. Coast Guard: 
Identifying Barriers to Female Retention?
    Answer. Response was not received at the time of publication.
    Question 13b. The RAND Corporation report found that women in the 
Coast Guard can feel pressured to choose between the demands of working 
in the service and their desire to have a family. How does the Coast 
Guard ensure women who wish to start families can retain their careers 
in the service and not be excluded, explicitly or implicitly, from 
opportunities for advancement? How does the Coast Guard account for the 
potential for service members to go on parental leave when developing 
staffing plans? How is parental leave addressed in performance 
evaluations?
    Answer. Response was not received at the time of publication.
    Question 13c. What changes to berthing on newly procured National 
Security Cutters, Offshore Patrol Cutters, and other vessels have been 
made to more inclusively accommodate mixed-gender crews?
    Answer. Response was not received at the time of publication.
 Questions From Hon. Bonnie Watson Coleman for Admiral Karl L. Schultz
    Question 1a. The 2019 Righting the Ship Majority staff report found 
that Black cadets are subjected to substantially higher rates of 
discipline and pass courses at a lower rate than their peers at the 
Coast Guard Academy. According to the Coast Guard, Black cadets make up 
approximately 10 percent of those who are disenrolled from the Academy 
for academic or conduct issues, but only about 5 percent of those who 
graduate.
    What is the Coast Guard doing to address this disparity?
    Answer. Response was not received at the time of publication.
    Question 1b. Will you commit to providing this committee with 
yearly demographic data on disciplinary and graduation rates at the 
Coast Guard Academy?
    Answer. Response was not received at the time of publication.
    Question 2. What specific implicit bias mitigation measures does 
the Coast Guard utilize to make sure punitive action is fair and not 
disproportionality levied on service members of color across the 
service?
    Answer. Response was not received at the time of publication.
    Question 3. In your opinion as Commandant, what are the most urgent 
issues facing the LGBTQ community in the Coast Guard?
    Answer. Response was not received at the time of publication.
    Question 4. What specific initiatives has the Coast Guard 
undertaken to ensure members of the LGBTQ community feel welcome in the 
ranks, including in recruitment; housing; mental and physical health 
services; and protection from harassment, bullying, and assault?
    Answer. Response was not received at the time of publication.
    Question 5a. The RAND Corporation has conducted studies for the 
Department of Defense that include LGBTQ data, but the last two studies 
commissioned by the Coast Guard to examine workforce issues excluded 
LGBTQ perspectives and data.
    What is Coast Guard leadership's rationale for this exclusion?
    Answer. Response was not received at the time of publication.
    Question 5b. Will the Coast Guard commit to commissioning a study 
regarding issues affecting LGBTQ service members and sharing those 
findings with this committee?
    Answer. Response was not received at the time of publication.
       Questions From Hon. Dan Bishop for Admiral Karl L. Schultz
    Question 1. Can you provide detail about affinity groups, body 
composition standards changes, and prohibition of use of gendered 
language in evaluations?
    Answer. Response was not received at the time of publication.
    Question 2. Can you provide copies of all D&I training materials in 
use or used in past 24 months?
    Answer. Response was not received at the time of publication.
      Question From Hon. Clay Higgins for Admiral Karl L. Schultz
    Question. We have heard your need for annual growth of 3 to 5 
percent. Would that level of funding allow the Coast Guard to crew and 
operate new assets; make meaningful investments in its shore portfolio 
and IT systems; and recruit, train, and retain the workforce of the 
future?
    Answer. Response was not received at the time of publication.



                          A P P E N D I X  I I

                              ----------                              

   Letter From K. Denise Rucker Krepp to Chairman Bennie G. Thompson
                                      July 5, 2021.
Chairman Bennie Thompson,
House Homeland Security Committee, H2-176 Ford House Office Building, 
        Washington, DC 20515.
Re: Building the Coast Guard America Needs: Achieveing Diversity, 
Equity, and Accountability Within The Service

    Dear Chairman Thompson: Thank you for holding the June 23, 2021 
hearing regarding harassment, bullying, assault, and retaliation in the 
Coast Guard. As a former Coast Guard officer and Maritime 
Administration Chief Counsel, I testified twice in 2014 before a 
Congressionally-mandated panel and again in 2019 before the U.S. 
Commission on Civil Rights about assault and retaliation. The following 
are my recommendations on how to stop the long-known, but little 
addressed problems.
    Annual Report.--The Coast Guard is required to submit an annual 
report on sexual assault. This report is usually shared with Congress 
in the middle of the year, after the service's authorization and 
appropriation hearings. Requiring the report to be submitted as part of 
the service's proposed budget will give Congress additional 
opportunities to ask Coast Guard leaders about the report and it will 
encourage them to provide more timely responses.
    Prosecutions.--Very few sexual assault cases are prosecuted and 
this low number discourages survivors from seeking help. Ask the Coast 
Guard what it will be doing this year and in the next 5 years to 
increase the prosecutions. Their responses should be in writing, 
allowing Congress to better track the service's progress.
    Retaliation.--Per numerous Inspector General reports, Coast Guard 
personnel have been retaliated against. I recommend that you direct the 
Coast Guard to provide an annual report on retaliation and bullying. 
Direct them to share the total number of cases and how each case was 
resolved. Having served as a Federal agency chief counsel, I can share 
that annual reports linked to budget hearings force action.
    Compare data.--Every year, Coast Guard veterans file military 
sexual trauma claims with the U.S. Department of Veterans Affairs. The 
VA tracks these claims by conflict, State, gender, and race. I 
recommend that you request information on an annual basis to better 
understand the financial costs associated with the crimes.
    Find the money.--Civilian claims of retaliation, harassment, and 
bullying may file monetary claims against the Coast Guard. I recommend 
that you request an annual accounting from the service on these claims. 
When requesting the money information, Congress should ask if 
individuals who harassed, bullied, or retaliated against a Coast Guard 
member are still employed by the service.
    Apology.--Please direct Admiral Schultz to write a written apology 
to CDR Young-McLear, doing so will encourage other retaliation victims 
to share their stories.
    Thank you for holding the June hearing. Please let me know if you 
have any questions regarding my recommendations.
            Sincerely,
                                    K. Denise Rucker Krepp,
Former Coast Guard officer and former Maritime Administration Chief 
                                                           Counsel.

                                 [all]
</pre></body></html>
